<html>
<title> - EASING THE BURDENS THROUGH EMPLOYMENT</title>
<body><pre>[Senate Hearing 111-474]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-474
 
                 EASING THE BURDENS THROUGH EMPLOYMENT

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2009

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                  U.S. GOVERNMENT PRINTING OFFICE
54-281                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Lindsey O. Graham, South Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Roger F. Wicker, Mississippi
Jim Webb, Virginia                   Mike Johanns, Nebraska
Jon Tester, Montana
Mark Begich, Alaska
Roland W. Burris, Illinois
Arlen Specter, Pennsylvania
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                           November 18, 2009
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
Murray, Hon. Patty, U.S. Senator from Washington.................     2
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     4
Tester, Hon. Jon, U.S. Senator from Montana......................     5
Begich, Hon. Mark, U.S. Senator from Alaska......................    17

                               WITNESSES

Jefferson, Raymond, Assistant Secretary for Veterans' Employment 
  and Training, U.S. Department of Labor.........................     6
    Prepared statement...........................................     9
    Response to post-hearing questions submitted by:
      Hon. Daniel K. Akaka.......................................    13
      Hon. Patty Murphy..........................................    16
Ziob, Lutz, General Manager, Microsoft Learning Microsoft, Inc...    29
    Prepared statement...........................................    32
Wikul, Peter ``Bull Frog,'' Captain USN (Ret.), Director America 
  Works of New York, Inc.........................................    38
    Prepared statement...........................................    41
    Response to post-hearing questions submitted by Hon. Daniel 
      K. Akaka...................................................    43
Lawton-Belous, Joshua, Iraq Veteran and Business Analyst, Oracle 
  Corporation....................................................    44
    Prepared statement...........................................    46
Daniel, Dexter, Vietnam Veteran..................................    47
    Prepared statement...........................................    48
Tymes, Helen, Career Specialist, National Organization on 
  Disability (NOD)...............................................    49
    Prepared statement...........................................    51
        Attachments..............................................    58

                                APPENDIX

Burris, Hon. Roland W., U.S. Senator from Illinois; prepared 
  statement......................................................    71


                 EASING THE BURDENS THROUGH EMPLOYMENT

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2009

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room SR-418, Russell Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, Brown, Tester and Begich.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The hearing of this U.S. Senate Committee 
on Veterans' Affairs will come to order. Aloha, good morning, 
and welcome to this hearing on veterans' employment.
    These are difficult times for many Americans with an 
unemployment rate higher than it has been in more than 20 
years. When the number of those who have given up looking for 
work because they believe none is available, and it is combined 
with those who are only able to find part-time employment, the 
extent of our challenge is staggering.
    For our Nation's veterans, especially for those who have 
recently separated from active duty, the search for a job can 
be particularly difficult. Skills honed on the battlefield are 
not easily translated to a resume for the civilian job market. 
Add to that the need for a period of readjustment to civilian 
life, and the problem is compounded.
    Veterans who have been injured while on active duty, and 
especially those who are suffering the invisible wounds of war, 
face an even more daunting task when seeking to find a career. 
For those thousands of veterans who are homeless, who may be 
bearing the burdens of drug or alcohol abuse or struggling with 
mental issues, finding work seems impossible. Older veterans 
and those from other conflicts may lack the skills necessary to 
compete in an increasingly high-tech type of job market. Jobs 
that once were plentiful may simply no longer exist.
    Today we will be focusing on the employment needs of 
veterans, especially those who have recently separated from 
active duty and those who face substantial or unique obstacles 
in the civilian workforce. The goal this morning is to gain 
input in ways to improve current programs. We also need ideas 
for new initiatives for transitional programs that emphasize 
easing burdens through employment and reducing homelessness 
among other things.
    Veterans make good employees. They have learned discipline, 
commitment, and the value of hard work. Many employers are 
eager to hire these brave men and women. The challenge is 
matching the right former servicemember with the right career 
and addressing any obstacles that may stand in the way of 
successful employment.
    On November 5th, I was privileged to attend the Department 
of Labor's annual Salute to Veterans. It was an impressive 
event led by our lead witness today, the Honorable Ray 
Jefferson, Assistant Secretary of Labor for Veterans' 
Employment and Training.
    I was especially moved by the remarks made by two young 
veterans, Ms. Dawn Halfaker and Command Sergeant Major Michele 
Jones. These remarkable individuals spoke from their hearts 
about what it means to be a veteran and the challenges that 
they face. They touched many hearts with their words that day, 
and we have reason to be proud of them and the hundreds of 
thousands of others who have honorably served our country in 
time of need.
    Our agenda is an ambitious one this morning, and I know 
that there is much ground to cover. I look forward to the 
testimony and working with all Committee Members and advocates 
to find ways to address the employment needs of veterans.
    Now I would like to call on Senator Murray from the State 
of Washington for her opening statement.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Mr. Chairman, thank you very much for 
holding this really important hearing on some of the burdens 
that our veterans are seeing as they try to come home and get 
civilian employment. I want to thank all of the witnesses who 
are going to be appearing before us. I look forward to your 
comments today.
    But before I begin, I do want to welcome one of our 
witnesses today. He is a Washingtonian and a Microsoft 
employee, Lutz Ziob. He is in the audience here today. He is 
going to be testifying. He is here, Mr. Chairman, to talk about 
the barriers and opportunities for veterans in the information 
technology realm. I know that in today's high-tech military, we 
need to be working to find ways to translate our 
servicemembers' technology skills into the civilian world. So, 
I am really looking forward to his thoughts today.
    Mr. Chairman, our Nation's veterans have all the character 
and skills they need to succeed in the working world. They are 
disciplined team players who have proven that they can perform 
under pressure. Now we have got to make sure that the VA and 
the Department of Defense and the Department of Labor are given 
the tools they need to give those soldiers the support they 
need.
    In the coming months, I had planned to introduce a 
veterans' employment assistance bill that I hope will add to 
the toolbox. It is a bill that is designed to expand employment 
and training and placement service for our veterans. It will 
help our veterans who are looking to create small businesses by 
establishing a veterans' business center program. It will help 
unemployed veterans get the job training they need. We are 
going to set up a demonstration program to examine how 
transitioning servicemembers can build on their military IT 
skills to enter the civilian IT workforce.
    In addition to that bill, last week Senators Klobuchar, 
Johanns and I introduced the Post-9/11 Veterans' Job Training 
Act. Our bill takes a very critical step forward for veterans 
by expanding benefits available under the Post-9/11 GI Bill to 
include job training and apprenticeships because in these tough 
economic times, we have got to expand the opportunities opened 
under the Post-9/11 GI Bill to include workforce training. So, 
I hope my colleagues take a look at this legislation to help 
our veterans obtain access to employment through better 
training.
    Mr. Chairman, our men and women who are fighting overseas 
face incredibly dangerous and stressful situations on the 
battlefield, so it is critical that we not add to that stress 
by burdening them with worries about keeping or finding jobs 
for themselves and their families.
    In my home State, the citizen soldiers of the 81st Brigade 
Combat Team of the Washington Army National Guard just returned 
this summer after serving their country honorably in Iraq. We 
had about 2,300 members of that brigade return. About half of 
them tried to get direct job placement or job training, and of 
those were trying to get job placement, only 20 percent have 
been able to get a job so far.
    So, we know that these men and women are struggling when 
they come home. In Washington we also have thousands of 
soldiers from Fort Lewis who have returned from Iraq and 
Afghanistan who are seeking employment resources.
    I do want to say I am very really encouraged by some of the 
grassroots efforts that are occurring in my State. I want to 
actually take this opportunity to acknowledge the important 
work that is being done by Hire America's Heroes. That is a 
Washington state-based organization that focuses on improving 
access to corporate jobs for transitioning military 
servicemembers, veterans, and their family members. By bringing 
together major employers in my State--Comcast, Boeing, 
Weyerhaeuser, Starbucks--with our area veterans, Hire America's 
Heroes has been able to sidestep many of the barriers that 
often prevent veterans from having their unique skill sets 
recognized.
    I especially want to mention, Mr. Chairman, the great work 
being done by Marjorie James, the president of Hire America's 
Heroes, and General James Collins. He will be in the audience 
here shortly. General Collins is actually a two-star general. 
He has been one of the main forces behind Hire America's 
Heroes. He has served our Nation honorably both in and out of 
uniform, and as a retired officer and a former Weyerhaeuser 
employee, General Collins brings a very valuable perspective on 
veterans' employment issues to the table. And I really want to 
take this opportunity to publicly thank him for his work.
    So, as I have said many, many times here and around the 
country, I believe how we treat our veterans when they come 
home is an indication of the character of this Nation, and we 
have to do all we can to transition them from servicemember to 
citizen, and making sure they have the skills and the jobs when 
they come home is a critical part of that. So, this hearing is 
extremely important, and I want to thank you, Mr. Chairman, for 
holding it.
    Chairman Akaka. Thank you very much, Senator Murray.
    Now I will ask Senator Brown for his opening statement.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman, for holding this 
important hearing and aloha.
    Chairman Akaka. Aloha.
    Senator Brown. Aloha, Secretary Jefferson. Thank you for 
joining us on Hawaii Day here, I guess. Thank you very much for 
being part of this.
    I can only stay a few minutes because I have a HELP markup 
at 10, but I look forward to learning from Assistant Secretary 
Jefferson about the Veterans Employment Council.
    As I travel my State--and I have had numerous roundtables 
with veterans and with health care workers and educators and 
families of servicemembers where I hear over and over about the 
health and education needs of servicemembers. This hearing 
could not have come at a more important time as our country 
works to recover from last year's economic meltdown.
    My State does not have the highest employment rate. It is 
one of the highest, over 10 percent, as much of the country is 
afflicted with, but it also has been in recession longer than 
almost any other State, I believe, with the exception of 
Michigan.
    We know from the U.S. Department of Labor that returning 
vets are more likely to be unemployed than their civilian 
counterparts. There are structural reasons for this that are 
pretty obvious. Vets have been away from the workforce serving 
our Nation. Oftentimes, they are beginning a second career 
after retirement. There are economic reasons for job disparity 
as well since many companies are not hiring obviously during 
this downturn. As the economy begins to recover, many people 
are not likely at least soon to change jobs. But that does not 
make it acceptable. What it does, however, is tells us where we 
must provide assistance and where we can seize opportunities to 
expand employment opportunities for our veterans.
    Late last month, I went to Youngstown State University in 
northeast Ohio for the naming of Air Force Boulevard on its 
campus. YSU has been a leader in reaching out to veterans and 
military students because, as Senator Murray pointed out, it 
knows the values of a military career. From the newly-created 
office of Veterans Affairs to being designated as a military-
friendly campus by GI Jobs magazine, YSU is demonstrating its 
commitment to a cause greater than itself.
    The city of Youngstown has been hit especially hard by 
economic times, but that is changing, too, in large part 
because YSU is playing a key role in bringing talented men and 
women from our military with their skills, their talents, their 
experiences, and their life experiences, especially, to the 
city of Youngstown to be part of the rebirth in Mahoning 
Valley.
    Employing veterans and tapping their skills are an 
important part of the city's business model for revival. It is 
not just happening in Youngstown. There are active programs at 
Cuyahoga Community College, Cleveland State University, and 
other colleges around Ohio are contemplating establishing their 
own similar programs.
    Helping vets get into the civilian workforce or moving up 
the company ladder is not only about rewarding them for service 
to our Nation, but because veterans have skills and experiences 
and expertise that are so needed in the private sector and in 
government.
    When FDR signed into law the original GI Bill six and one-
half decades ago, he not only provided servicemembers with an 
education that strengthened our Nation, colleges and 
universities were created to serve the growing student 
population. Businesses expanded with a highly-educated 
workforce. Middle-class communities thrive with renewed 
economic prosperity in large part because of these highly-
skilled, increasingly highly-skilled returning vets.
    We must encourage and promote the value of hiring vets 
within the private sector and by the government. This hearing, 
Mr. Chairman, is an important step in doing that. Thank you.
    Chairman Akaka. Thank you very much, Senator Brown.
    Now I will call on Senator Tester for his opening 
statement.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I, too, want to thank you, Chairman Akaka, 
for holding this hearing, and I want to welcome the witnesses 
on both panels. A special welcome to Secretary Jefferson. It is 
good to see you again, and I look forward to your testimony and 
your energy, as always.
    Like the rest of the country, Montana continues to get 
through a significant economic downturn. Unemployment rates in 
some parts of our State are over 11 percent, and most of those 
counties are very, very rural.
    A tough economy, coupled with physical disability, a mental 
condition, or routine job loss, can leave a veteran 
particularly vulnerable. I look forward to hearing today about 
how the Department of Labor's programs are working, 
particularly in rural and frontier areas where it is often 
harder to find work.
    In addition, I am deeply concerned about the Guard and 
Reserve members returning from Iraq and Afghanistan who are 
transitioning back to civilian life and civilian jobs. Last 
week, I had a chance to sit down with Montana's Adjutant 
General. He has over 1,200 Guardsmen that are scheduled to 
deploy next year. That is nearly one-third of the Montana 
Guard. Those folks will have all the employment needs when they 
come home, but sometimes the job they left no longer exists. 
And in other cases, their military skill set does not translate 
into the civilian job market, thus increasing the difficulty of 
finding a job or employment opportunity in their hometown.
    With all of these challenges and changes, I think we have 
to critically review the focus and value of these programs. We 
have to ensure their efficiency, applicability and 
responsiveness. The relationship between the Veterans 
Administration and the Department of Labor is absolutely 
critical. We need extra attention on veterans in rural and 
frontier areas and on Indian country. At the end of the day, we 
have to make sure we have done everything possible to help our 
veterans find jobs.
    So, Mr. Jefferson, I know you have got a lot of ideas and 
absolutely a lot of energy, and I want to make sure that you 
are getting the support that you need from Secretary Solis and 
Secretary Shinseki. We are here to support you and ensure that 
you have the resources necessary to advance these very 
important programs.
    In closing, I just want to ask that if we have a veteran in 
a situation where they are deployed, they come back, they are 
returning to a frontier area of the State where there are less 
than 350 veterans, and they have got some issues in a job loss 
area, how do your programs apply to those folks?
    I know you cannot be everything to everybody, but we 
certainly can try to be everything to everybody. So, that is 
really my concern as I go around the State of Montana every 
weekend into areas where there are big land masses but few 
people. And a lot of veterans, a lot of people in those areas, 
serve in our military because they feel a calling to service. 
Those folks return to those communities and they need support, 
and we need to make sure that support is there.
    Again, I want to thank everybody in both panels for 
participating, and I want to once again thank the Chairman for 
calling this hearing. Thank you.
    Chairman Akaka. Thank you very much, Senator Tester.
    I want to welcome our first panel this morning. Our first 
witness is the Honorable Raymond Jefferson, Assistant Secretary 
of Labor for Veterans' Employment and Training. This is 
Secretary Jefferson's first appearance before this Committee 
since his confirmation in June, and I want to extend a very 
warm aloha to him this morning, and especially to note that 
this is the anniversary of his hundredth day on the job. I wish 
you well.
    Secretary Jefferson. Thank you, sir.
    Chairman Akaka. I know that his enthusiasm and energy and 
commitment is contagious and that he is determined to get the 
job done. I thank you for being here this morning, Mr. 
Secretary. Your full testimony will, of course, be printed in 
the record. Thank you very much, Secretary. Please begin with 
your statement.

 STATEMENT OF HON. RAYMOND JEFFERSON, ASSISTANT SECRETARY FOR 
  VETERANS' EMPLOYMENT AND TRAINING, U.S. DEPARTMENT OF LABOR

    Secretary Jefferson. Right. Well, Chairman Akaka, aloha. 
Senator Murray, Senator Brown, Senator Tester, thank you for 
your service to our Nation, to the veterans' community, and for 
the opportunity to be here before you today. It is my hundredth 
day. I remain thrilled and honored to have this opportunity to 
serve our Nation's veterans.
    We are working diligently every day. Secretary Solis had 
made vets and veterans one of her top priorities. We are 
working very hard to achieve her vision of good jobs for 
everyone. I want to acknowledge that we have unprecedented 
support and relationship at VA with Secretary Shinseki and 
Deputy Secretary Gould.
    Since being confirmed, I have been meeting with 
stakeholders to get their feedback on the issues, challenges, 
and opportunities facing our Nation's veterans and 
transitioning servicemembers. From that and my observations, I 
have formed five aspirations that we are committed to achieve 
as outcome goals.
    Let me share these with you. First, to serve as a national 
focal point for veterans' training and employment, and this 
will involve several actions. Second, increasing our engagement 
and outreach to employers, particularly the private sector. 
Third, providing seamless transition for transitioning 
servicemembers with a particular emphasis on emerging 
industries and green jobs. Fourth is boosting the impact of 
USERRA by increasing awareness of it and also commitment to it. 
And finally, developing our team members' potential so they 
have meaningful careers and provide the best possible service 
and programs.
    Let me first talk about improvements in current programs. 
During the confirmation hearing with regards to TAP, I promised 
to do an external review of the TAP employment workshop. Thus 
far, we are presently reviewing TAP's performance and impact. 
We are also working to modernize the workshop to increase its 
effectiveness and improve the participants' employment 
outcomes. A key component of that is going to be bringing new 
content into the workshop, content that is more economically 
relevant, immediately useful and also engaging for the 
participants. We are working closely with DOD, VA and DHS as we 
accomplish this.
    USERRA. During the hearing I promised to do an external 
review of the USERRA program and determine ways to improve it. 
We have recently completed a Lean-Six-Sigma quality enhancement 
and process efficiency assessment. What will be the impact of 
this? It is going to help us to streamline the process, to 
provide consistent high-quality investigations, to increase our 
responsiveness to our veterans, our clients and, also, it will 
help us determine other ways that we can improve the program 
and its outcomes.
    We are also identifying an electronic case management 
system to remove and address the paper-centric component of the 
USERRA process as it presently stands today.
    With regards to veterans' homelessness, we are fully 
committed to the shared vision between Labor, VA, HUD and other 
stakeholders of ending veterans' homelessness in 5 years. We 
have 131,000 veterans at least on any given day who are 
homeless. What will be the Department of Labor's contribution 
to this? We have requested a 34 percent increase in our budget, 
$9 million. Of that, $4 million will go toward funding the 
Incarcerated Veterans' Transition Program, which should help 
approximately 1,500 veterans through 12 sites.
    We also plan to take up to $5 million of that and to do 
focused work to better serve homeless women veterans and 
veterans with families. We want to identify the best practices 
for serving this population and to disseminate that more 
broadly to service providers.
    With regards to the Jobs for Veterans State Grants, two 
things I would like to emphasize. One, increased employer 
outreach, and I will talk more about that later. But we are 
developing a new model to more effectively engage with 
employers in the private sector to increase veterans' hiring.
    We have also partnered with ETA to ensure priority of 
service at all ETA one-stops in Department of Labor training 
and employment programs. And for the first time, Assistant 
Secretary Jane Oates and I--Jane Oates of ETA--we have issued 
joint guidance for how this would be implemented. And during my 
time in the field, I am ensuring that this is cascading down.
    We also have new initiatives. One which I am very excited 
about and spoke about during the hearing is increased 
engagement with employers in the public and private sectors. In 
the public sector, President Obama recently signed the new 
veterans' hiring initiative for the Federal Government. This 
will mobilize the entire Federal Government to do more 
recruiting and training of veterans to ensure that those 
veterans who are recently hired successfully make the 
transition to a new work environment. There will be hiring 
managers in all the large departments. This is a huge step to 
bring the veterans who are transitioning and veterans who are 
unemployed into the Federal Government.
    We are also developing relationships with the private 
sector. We recently took a major first step and gave an address 
at the U.S. Chamber of Commerce's Business Steps Up: Hiring Our 
Heroes last week. We will be having a follow-on meeting with 
employers that the Chamber has graciously agreed to bring 
together to look at how do we develop hiring partnerships and 
hiring relationships, which will be very effective to get more 
veterans into these private sector jobs.
    Additionally, we are developing relationships with thought-
leading business associations. We will be reaching out to 
business executives in national security. We have had some 
initial relationships there--Young Presidents Organization and 
World Presidents Organization. In my travels, I am bringing a 
new model together to connect us with economic development 
boards, high-tech associations, et cetera.
    In terms of pilot programs, we are also doing accelerated 
hiring initiatives, one with Job Corps and one with OFCCP right 
now, the Office of Federal Contract and Compliance Programs. I 
would like to use these as a model to validate the proof of 
concept that we can then bring to hiring partnerships with 
larger companies.
    Targeted populations. There are several populations which 
are underserved. I spoke about this during the confirmation 
hearing. Native American veterans, many, Senator Tester, who 
are in rural areas, just completed participating in a summit 
led by Secretary Solis with Native American tribal leaders to 
identify some of their issues and the ways that we can better 
serve them.
    Two, we have a study going, which I have requested to go 
further to become deeper and more comprehensive, that will help 
us identify the recommended best practices and solutions for 
better serving Native American veterans, especially those on 
tribal lands. Also, in 2010, we will be engaging and 
participating in the major Native American conferences and 
summits to make the tribal leaders aware of the programs and 
resources available to them. And I am mobilizing my regional 
administrators to support this outreach effort.
    Veterans who have been wounded or injured. We have the 
REALifelines program that provides one-on-one life planning and 
seamless transition to veterans who have been wounded or 
injured. We are very excited about that, and we have also 
formed liaisons at the Department of the Army and Department of 
the Navy this year.
    Furthermore, we have the America's Heroes at Work program, 
which is an education program for transitioning servicemembers 
with PTSD, that teaches employers the accommodations which are 
required to provide these wounded warriors with meaningful 
roles.
    Finally, the Veterans Green Jobs initiative. We have 
awarded 17 grants totaling $7.5 million to provide training in 
occupations relating to emerging industries and green jobs.
    In conclusion, Chairman Akaka and Distinguished Members of 
the Committee, I really appreciate and the team really 
appreciates the unwavering support and commitment that we have 
received from this Committee. We are excited. We are working 
tirelessly and innovatively to make sure our veterans and 
transitioning servicemembers create meaningful lives, develop 
rewarding careers, and become productive citizens and leaders 
in their communities. There is further detail in my written 
testimony.
    Thank you for the opportunity to appear before you today. I 
stand ready to answer your questions.
    [The prepared statement of Secretary Jefferson follows:]

  Prepared Statement of Hon. Raymond Jefferson, Assistant Secretary, 
      Veterans' Employment and Training, U.S. Department of Labor

    Chairman Akaka, Ranking Member Burr, and Distinguished Members of 
the Committee on Veterans Affairs: Thank you for your service to the 
Nation, for your service to the Veterans community, and for the 
opportunity to testify before you today about the actions we're taking 
at the Department of Labor's Veterans' Employment and Training Service 
(VETS) to meet our Veterans' and transitioning Service Members' 
employment needs.
    Today marks my 100th day of serving as your Assistant Secretary of 
Labor for Veterans' Employment and Training. The past few months have 
been busy ones spent learning about the agency, determining how to 
improve our current programs, creating necessary new initiatives and 
developing partnerships with our stakeholders.
    I remain deeply humbled, honored and energized by having the 
privilege to serve our Nation as President Obama's appointee for this 
role. Secretary Solis has been an incredible source of guidance, wisdom 
and support, and has made Veterans and VETS one of her top priorities.
    During the past 100 days, you and your professional staff have been 
a tremendous source of ideas, wisdom and insights. Thank you.
    As we're all aware, since the onset of military operations in 
Afghanistan and Iraq, over 1 million members of the active duty 
military have served in these two theaters. Additionally, since 
September 11, 2001, the Department of Defense (DOD) reports that over 
700,000 National Guard and Reserve mobilizations have occurred--the 
largest deployment of the National Guard in the past half century.
    Every day, we are reminded of the tremendous sacrifices made by our 
servicemen and women, and by their families. Our Veterans should be 
remembered, honored and appreciated not just on Veterans' Day, but 
every day. One way that we do that is by providing them with the best 
possible services and programs our Nation has to offer. Accomplishing 
this will require seamless collaboration, enhanced communication, and 
sustained, purposeful action. It's going to take all of us working 
together, sharing best-practices and developing innovative solutions to 
challenging problems while constrained by limited resources.
    I am honored to be here today to provide an update on improvements 
to current programs and new initiatives, and to answer your questions.

                           BACKGROUND ON VETS

    The mission of VETS is to provide Veterans and transitioning 
Service Members with the resources and services to succeed in the 
workforce by maximizing their employment opportunities, protecting 
their employment rights, and meeting labor market demands with 
qualified Veterans.
    We accomplish our mission through three distinct functions: (1) 
conducting employment and training programs; (2) enforcing relevant 
Federal laws and regulations; and (3) providing transition assistance 
services.
    VETS administers two employment and training programs through 
formula grants to States that directly meet the goals of its mission: 
(1) the Disabled Veterans' Outreach Program (DVOP) and (2) the Local 
Veterans' Employment Representatives (LVER) program. DVOP specialists 
provide outreach services and intensive employment assistance to meet 
the employment needs of eligible Veterans. LVER staff conduct outreach 
to employers and engage in advocacy efforts with hiring executives to 
increase employment opportunities for Veterans, encourage the hiring of 
disabled Veterans, and generally assist Veterans to gain and retain 
employment.
    VETS also administers two competitive grant programs. To meet the 
needs of homeless Veterans and help reintegrate them into the 
workforce, VETS administers the Homeless Veterans' Reintegration 
Program (HVRP). Veterans with significant barriers to employment or 
service-connected disabilities are also served through the Veterans 
Workforce Investment Program (VWIP), which offers innovative training 
and placement services. The program was recently refocused to emphasize 
training and placement in green industries.
    Our enforcement programs investigate complaints filed by Veterans 
and other protected individuals under the Uniformed Services Employment 
and Reemployment Rights Act (USERRA), assess complaints alleging 
violation of statutes requiring Veterans' Preference in Federal hiring, 
and implement and collect information regarding Veteran employment by 
Federal contractors.
    VETS' transition assistance services are offered through the 
Transition Assistance Program (TAP), which provides employment 
workshops and direct services for separating Service Members, including 
those who are seriously wounded and injured.

                              ASPIRATIONS

    Since being confirmed, I have met with Service Members and 
Veterans, leaders in the Federal and private sector, Veterans' Service 
Organizations and providers of employment and training services to 
solicit their views on the issues and challenges regarding Veterans' 
employment. I have incorporated the combination of feedback and 
observations from these discussions into five aspirations that VETS 
will pursue during my tenure as Assistant Secretary in order to achieve 
our desired outcomes:

    1. Providing Veterans and transitioning Service Members a voice in 
the workplace through serving as the National focal point for Veterans' 
employment and training. This will involve the following actions:
          a. Increasing awareness, access and participation in VETS 
        programs, and employment outcomes for those participants.
          b. Communicating, convening and collaborating with partners 
        and stakeholders.
          c. Ensuring we effectively serve populations with unique 
        needs, especially Veterans and transitioning Service Members 
        who are women, homeless, live in rural areas, or are wounded, 
        ill or injured.
    2. Creating a path to good jobs for Veterans through increased 
engagement with employers, with a particular emphasis on the private 
sector.
    3. Helping Service Members transition seamlessly into meaningful 
employment and careers while emphasizing success in emerging industries 
such as green jobs.
    4. Facilitating a return to work for Veterans and protecting 
vulnerable populations through boosting USERRA's impact by increasing 
awareness of and commitment to it.
    5. Investing in VETS' team members and emphasizing continuous 
improvement to further develop their potential and better serve our 
clients.

                    IMPROVEMENTS IN CURRENT PROGRAMS

TAP
    During the confirmation hearing, I promised to do an external 
review of the Transition Assistance Program (TAP) employment workshop 
and determine ways to improve it. In addition to presently reviewing 
TAP's performance and impact, we are also working to identify and 
incorporate world class content to modernize the workshop, increase its 
effectiveness and improve participants' employment outcomes. 
Specifically, we want the content to be more economically relevant, 
immediately applicable, and engaging for participants. Thus far, we've 
solicited input from external, world-class content experts and service 
providers to help us determine what would be a best-practice employment 
transition program. We are working in close cooperation with our 
partners at DOD, the Department of Veterans Affairs (VA) and the 
Department of Homeland Security (DHS) in this endeavor.
    Earlier this month, our three agencies engaged in a weeklong 
working group to develop a joint, multi-year, strategic plan for TAP. 
We're all committed to ensuring the plan is action-oriented and will 
have a direct, positive impact on our transitioning Service Members. 
The plan will involve an increased emphasis on the employment needs of 
the Reserve components and Service Members who have been wounded, ill 
or injured.

USERRA
    VETS recently completed a Lean-Six-Sigma quality enhancement and 
process efficiency assessment of USERRA, with a view toward 
streamlining, quality improvement and increasing responsiveness to our 
Veteran clients. The goals of the assessment were to 1) identify ways 
of ensuring a consistent, high standard of investigations; and 2) 
determine other steps to improve the program and its outcomes. We have 
begun work on identifying an electronic case management system to 
eliminate the paper-centric aspect of investigations and improve 
efficiency. Access to this system will be shared with our Federal 
enforcement partners.
    We are also working closely with the Office of Personnel Management 
(OPM) to ensure that the Federal Government serves as a role model for 
honoring USERRA.
The Homeless Veterans' Reintegration Program and Veterans' Homelessness
    Secretaries Solis, Shinseki and Donovan share the vision of 
eliminating homelessness among Veterans within five years. We have 
strengthened our interagency collaboration at all levels to mobilize 
for this important and necessary goal. VETS' contribution to this 
effort will include the following:

    <bullet> Continue reaching out to homeless Veterans and assisting 
them in becoming reintegrated into the workforce through the Homeless 
Veterans' Reintegration Program (HVRP). VETS requested a total of 
$35,330,000 for the HVRP for FY 2010, an increase of $9,000,000 (34%) 
above the FY 2009 funding level. VETS expects to serve 21,000 
participants in FY 2010.
    <bullet> Through the Incarcerated Veterans Transition Program 
(IVTP), VETS will continue its efforts to help incarcerated veterans 
and will coordinate these efforts with the Department of Veterans 
Affairs. Of the $35 million requested for HVRP in FY 2010, VETS plans 
to use $4 million for IVTP, which will serve approximately 1,500 
Veterans through 12 grants.
    <bullet> Of the $9 million increase requested for the HVRP in FY 
2010, we would use up to $5 million for a major new undertaking--to 
provide customized employment services for homeless women Veterans and 
homeless Veterans with families.
    <bullet> VETS is collaborating with DOL's Women's Bureau, which has 
already conducted over 60 listening sessions nationwide with homeless 
women Veterans to identify the causes and the solutions for 
homelessness among women Veterans. Their findings will be made 
available before the end of this year.
    <bullet> We recently conducted a national listening session with 
service providers, VA, the Department of Housing and Urban Development 
(HUD), and other government agencies to begin identifying the best 
practices for serving homeless women Veterans and homeless Veterans 
with families. We will continue to identify the best practices for 
serving this population, and disseminate them to service providers 
throughout the Nation.
Jobs for Veterans State Grants
    The FY 2010 request for State Grants is $172,394,000. This level of 
funding is expected to support 2,036 DVOP and LVER positions. We 
anticipate that this program will serve nearly 653,000 participants. We 
are also partnering with DOL's Employment and Training Administration 
to ensure Priority of Service for Veterans in all DOL-funded employment 
and training programs. Furthermore, VETS is collaborating with VA's 
Vocational Rehabilitation and Employment (VR&E) service to provide 
enhanced services to VR&E participants by out-stationing DVOPs at all 
57 VR&E Regional Offices.

                            NEW INITIATIVES

Increased Engagement with Employers in the Public and Private Sector.
    There is tremendous potential and opportunity for increasing 
engagement with employers to increase the hiring of Veterans and 
Transitioning Service Members. This will involve communicating the 
value proposition for hiring Veterans more effectively; making the 
hiring process more convenient and efficient; and developing hiring 
partnerships.
    Tremendous strides have been made in the Federal sector. For 
example:

    1. The Executive Order (EO) titled Employment of Veterans in the 
Federal Government was issued by President Barack Obama on November 9. 
It established the Veterans Employment Initiative for the executive 
branch to emphasize the importance of recruiting and training Veterans, 
increasing the employment of Veterans within the executive branch, and 
helping recently hired Veterans adjust to service in a civilian 
capacity. The EO also established the Veterans' Employment Council, 
which is chaired by Secretaries Solis and Shinseki, and Vice-Chaired by 
OPM Director Berry.
    2. VETS is also convening a roundtable with senior representatives 
from the Departments of Commerce, Veterans Affairs, Small Business 
Administration and the Minority Business Development Agency to 
streamline agency services; improve communications between the agencies 
on key Veteran hiring issues; better promote the hiring of Veterans, 
and overall get aligned on the issue of Veterans' employment and 
determine how we can work together more synergistically and 
strategically.

    VETS is also developing new relationships with major private sector 
organizations to enlist their advice and support to increase Veterans 
hiring.

    1. On November 12, Secretary Solis and VETS participated in a major 
outreach initiative to promote Veterans hiring sponsored by the U.S. 
Chamber of Commerce Foundation. In addition to serving as a keynote 
with Secretary Shinseki, this event was a major first step in 
developing a partnership with the U.S. Chamber of Commerce in this 
important area of shared interest.
    2. VETS is also in the process of developing relationships with 
other important business associations, such as the Executive Leadership 
Council, Young Presidents' Organization-World Presidents' Organization, 
Business Executives for National Security (BENS), business roundtables, 
economic development boards and high-tech associations.
Pilot Programs
    Within the Department of Labor, we are identifying opportunities to 
collaborate with other DOL agencies to pilot new approaches to 
accelerate transitioning Service Members into employment and training. 
For example, we're developing accelerated hiring initiatives with two 
of our sister agencies--the Office of Federal Contract Compliance 
Programs and Job Corps--to meet their human talent needs with 
transitioning Service Members and Veterans. Such pilot programs will 
allow us to refine and validate an operational model and identify best 
practices that can then be applied more broadly to other Veteran hiring 
initiatives.
Targeted Populations
    There are several populations of Veterans who have been under-
served and require special outreach and services.

    1. Native American Veterans, especially those on tribal lands, are 
one such population. Secretary Solis hosted a Summit of Tribal Leaders 
at the Department of Labor earlier this month that VETS participated 
in. We discussed the challenges facing Native American Veterans and 
potential solutions. This event began the process of better serving 
this community. VETS will also be participating in a number of major 
Native American outreach events in 2010. Furthermore, we are conducting 
a study on the employment needs of Native American Veterans living on 
tribal lands to identify best practices for serving this population.
    2. Veterans who have been wounded, ill or injured are another one 
of our targeted populations. In response to the employment needs of 
these brave heroes, VETS has two special initiatives.
          a. Recovery and Employment Assistance Lifelines 
        (REALifelines) provides one-on-one services to our wounded 
        warriors to ease their transition into civilian employment. We 
        have special REALifelines coordinators stationed at seven 
        military treatment facilities on a full-time basis who provide 
        employment services on those bases and at other nearby 
        facilities. We also have a VETS liaison working full-time at 
        Marine Headquarters in Quantico. This year, we established a 
        liaison at both the Department of the Army's and the Department 
        of the Navy's wounded warrior headquarters. These liaisons will 
        enable seamless transition and serve as a gateway to all DOL 
        employment and training services available to these wounded 
        warriors.
          b. America's Heroes at Work (AHAW) is a joint initiative with 
        DOL's Office of Disability Employment Policy. AHAW is an 
        outreach and anti-stigma campaign that educates America's 
        employers about the simple on-the-job accommodations and steps 
        they can take to help Veterans with post-traumatic stress and/
        or Traumatic Brain Injury to excel in their careers. This 
        program is a strong collaboration with DOD, VA and other 
        Federal agencies and stakeholders. AHAW has developed a series 
        of timely educational materials to help dispel the myths 
        associated with these conditions and highlight the value these 
        wounded warriors still bring to civilian workplaces. The 
        program receives outstanding feedback from both employers and 
        participants.
Veterans' Green Energy Jobs Initiative
    In July 2009, VETS awarded 17 competitive grants totaling $7.5 
million to provide training and employment services in green energy 
occupations to approximately 3,000 Veterans. These grants awards were 
made under the recently refocused VWIP program, with the goal of 
providing Veterans with training and other services that lead to green 
energy jobs. Fields of employment include energy efficiency, renewable 
energy, modern electric-power development and clean vehicles. This 
program will help Veterans overcome employment barriers and ease their 
transition into this growing industry.

                               CONCLUSION

    Mr. Chairman, Ranking Member Burr, and Distinguished Members of the 
Committee on Veterans Affairs, I reaffirm my commitment to work closely 
with you, the outstanding team at VETS, and our partners and 
stakeholders to provide Veterans and transitioning Service Members the 
best possible services and programs. Our success will be measured by 
the impact our programs have on helping our Veterans find and keep good 
jobs in today's modern economy.
    We will continue to work tirelessly and innovatively to help our 
Veterans and transitioning Service Members create meaningful lives, 
develop rewarding careers and become productive citizens and leaders in 
their communities.
    Thank you again for your unwavering commitment to Veterans and for 
the support that you've been providing to us.

    I appreciate the opportunity to testify before you today and look 
forward to answering your questions.
                                 ______
                                 
Response to Post-Hearing Questions Submitted by Hon. Daniel K. Akaka to 
   Raymond Jefferson, Assistant Secretary, Veterans' Employment and 
               Training Service, U.S. Department of Labor

    Question 1. Do you believe the availability of 26 weeks of 
unemployment compensation for separating members of the military 
contributes to a high rate of unemployment for those who have recently 
separated from active duty?
    Response. In today's economy, unemployment compensation is serving 
a particularly important role in providing a safety net for individuals 
who are having difficulty finding employment.
    One of the reasons that Unemployment Compensation for Ex-Service 
Members (UCX) is available to individuals who voluntarily leave 
military service is because there is often very little time or 
opportunity to find a civilian job while performing military service. 
In addition, UCX provides some protection against underemployment by 
alleviating some of the time pressure related to obtaining employment. 
This helps prevent talented individuals who have been serving their 
country from having to take the first job they can find and instead 
have time to search for a truly meaningful career.

    Question 2. The Transition Assistance Program, referred to as TAP, 
was established to meet the needs of separating servicemembers during 
their transition into civilian life by offering job-search assistance 
and related services.
    Secretary Jefferson, how effective do you believe TAP is in 
preparing servicemembers for careers in their civilian lives and in 
what ways, if any, do you intend to improve this program to meet its 
intent?
    Response. Anecdotally, we receive much positive feedback from TAP 
participants. However, there is room for improvement. For example, 
there is no baseline for TAP's effectiveness. Establishing such a 
baseline is a priority. We are encouraging spouses of separating 
Service Members to attend TAP employment workshops. Additionally, we 
will be transforming the content and service delivery, to ensure that 
the program is immediately useful, economically relevant, and engaging 
to participants. We will also assess whether we should increase the 
timeframe during which Service Members and Veterans can access the TAP 
employment workshop. Also, as stated in my testimony, we are working in 
close cooperation with our partners at the Departments of Defense 
(DOD), Veterans Affairs (VA), and Homeland Security (DHS) (for the U.S. 
Coast Guard) in improving TAP. Earlier this month, our three agencies 
engaged in a weeklong working group to develop a joint, multi-year, 
strategic plan for TAP. We're all committed to ensuring the plan is 
action-oriented and will have a direct, positive impact on our 
transitioning Service Members. The plan will involve an increased 
emphasis on the employment needs of the Reserve components and Service 
Members who have been wounded, ill, or injured.

    Question 3. Secretary Jefferson, one of our witnesses suggested 
that TAP workshops could be improved by focusing much more attention on 
the development of resumes that better reflect accomplishments and the 
skills learned while on active duty. Since a good resume is the first 
step in the job search process, what do you believe could be done to 
improve this aspect of the workshops?
    Response. Resume writing is an important part of the job search 
process, and needs to be complemented by increasing skills in 
interviewing and network development. We will incorporate into TAP the 
best models for resume writing in the private and public sectors and 
provide participants with preparation so participants can develop 
concise, compelling resumes that make a positive first impression and 
lead to interviews.

    Question 4. Secretary Jefferson, in your testimony you discuss 
DOL's efforts to engage employers and promote the value of hiring 
Veterans. Does DOL have or plan to have any efforts to coordinate with 
non-government agencies that provide employment services such as some 
of the groups on our second panel?
    Response. Absolutely. One of our ongoing activities is to engage 
with and learn from public, private and non-profit organizations to 
identify best practices related to transition and Veterans' employment. 
One manner in which we will achieve this objective is by developing a 
new and effective model for engaging with employers, especially in the 
private sector. This model will involve reinvigorating the roles and 
responsibilities of our Local Veterans' Employment Representatives 
(LVERs), and providing them with a new outreach approach. For example, 
we are creating a paradigm for engaging the private sector through 
interaction with organizations such as local Chambers of Commerce, 
economic development boards, business roundtables and high-tech 
associations.

    Question 5. It seems to me that we need to be focusing on helping 
Veterans find meaningful and productive careers. What will you do to 
prioritize this need?
    Response. The need for helping Veterans find meaningful and 
productive careers is one that we keep foremost in our minds on a daily 
basis. As noted above, one manner in which we will achieve this 
objective is by a new and more effective model for engaging with 
employers, especially the private sector. This model will involve 
reinvigorating the roles and responsibilities of our LVERs, and 
providing them with a new outreach approach. For example, we are 
creating a paradigm for engaging the private sector through regular 
interaction through organizations such as the local Chambers of 
Commerce, economic development boards, business roundtables and high-
tech associations. DOL also partners with VA's Vocational 
Rehabilitation and Employment service and Education service, both of 
which are established to equip Veterans with the education and training 
necessary to match their skills with careers in the private economy. 
DOL has refocused the Veterans' Workforce Investment Program into a 
Green Vets program that emphasizes preparing for and placement into 
Green Energy Jobs. Additionally, we will continually review our 
programs to determine how they can be enhanced and work to develop more 
innovative and effective approaches.

    Question 6. Secretary Jefferson, it has been said that some of our 
Nation's Veterans lack adequate training or education to compete 
effectively in today's high tech marketplace. Are you exploring ways 
Veterans can upgrade their skills such as increased training and 
education?
    Response. Ensuring that Veterans can upgrade their skills through 
increased training and education is of high importance to DOL and VETS. 
Eligible Veterans are entitled to priority service in all DOL funded 
employment and training programs offered through the DOL/State 
partnership. Another way that we can facilitate this is by raising 
awareness of the new GI Bill and the benefits that it offers. Other 
resources include Vocational Rehabilitation & Employment (VR&E) 
services that may be provided by VA to disabled Veterans needing 
training and/or assistive technology to compete in the marketplace. 
Additionally, we will be working to determine the best way to achieve 
and highlight accelerated credentialing and certification for Veterans. 
High-tech skills are particularly important and are often an integral 
part of green economy jobs. Therefore, we have refocused our $7.5 
million Veterans Workforce Investment Program, via 17 grants, to train 
and certify Veterans for green energy sector jobs.

    Question 7. Secretary Jefferson, can you elaborate on how DOL works 
with service providers to ensure that homeless Veterans have the 
resources to find and maintain gainful employment?
    Response. DOL funds over 100 Homeless Veteran Reintegration Program 
(HVRP) service providers and, through these programs, we provide 
employment training workshops. In Program Year (PY) 2010, we expect to 
provide training and employment services to over 21,000 homeless 
Veterans. This includes a program focus on incarcerated Veterans and 
homeless women Veterans. We also ensure that our Disabled Veterans 
Outreach Program specialists (DVOPs) are linked to and support our HVRP 
grantees. VETS also meets regularly with the Veterans Service 
Organizations (VSO) to discuss a variety of issues to include 
homelessness, and we work closely with VA and the Department of Housing 
and Urban Development. We also support VA Secretary Shinseki's goal of 
ending homelessness among Veterans in five years.

    Question 8. You testified that one of your office's new initiatives 
will focus on partnering with the private sector. How do you plan on 
incentivizing those employers in the private sector to hire Veterans 
over their civilian counterparts? In other words, how would you ensure 
that recently separated servicemembers can compete on equal footing 
with civilians who, in some case, may have far more training and job 
experience?
    Response. We believe that when employers are aware of the training, 
experience, attributes, and distinctiveness that Veterans and 
transitioning Service Members possess, they will be willing to hire 
them. Therefore, one of our priorities is to properly articulate and 
communicate a new, more compelling value proposition.
    Additionally, we are in the process of developing a new model for 
employer outreach and engagement that places a particular emphasis on 
the private sector. A key element of this model involves having our 
state directors, DVOPs and LVERs engage regularly with leadership from 
their local Chambers of Commerce, economic development boards, business 
roundtables and high-tech associations. The purpose is to increase 
awareness and access to opportunities for Veterans and to facilitate 
connectivity between Veterans and these employers.
    VETS is also committed to raising awareness of the Work Opportunity 
Tax Credit (WOTC) incentive for hiring unemployed Veterans. The 
expanded WOTC incentive for hiring an unemployed veteran can be as much 
as $2,400 to $4,800 for the first year of employment depending on the 
category of the target group. We will be raising awareness of this 
program through our VETS team members nationwide, DVOPs and LVERs.
    Further, VETS will also be convening a roundtable with senior 
representatives from the Departments Commerce and Veterans Affairs, 
Small Business Administration, and the Minority Business Development 
Agency to get aligned on the issue of Veterans' employment and 
determine how we can work together more synergistically and 
strategically.

    Question 9. You mentioned that a major emphasis for your office 
will be identifying resources that exist in the private and public 
sectors and, in essence, ``connecting the dots'' to ensure that 
Veterans receive the employment assistance and services that they need. 
Do you have a strategy for doing this?
    Response. VETS believes it is important to create a model for 
Veterans employment that connects supply (Veterans and transitioning 
Service Members) with demand (employers) and incorporates the following 
components: TAP transformation, marketing a new value proposition for 
Veteran hiring, licensing and certification, skill assessment and 
translation, and creating a new paradigm for employer outreach and 
engagement. Creating such a model will involve working in partnership 
with a broad array of stakeholders--especially the private sector--
identifying best practices and bringing these together in a cohesive, 
synergistic manner. At this point in time, we are developing 
relationships and are in discussions with relevant stakeholders about 
what the construction of such a model should be. The construction is in 
its initial phase and we will be pleased to keep you informed as it 
progresses.

    Question 10. At the August 25, 2009, hearing held in Oahu on 
returning Guard members, you suggested that VA increase its engagement 
with the private sector to help decrease Veteran unemployment. I would 
like to know what measures have been taken toward this goal thus far, 
and what type of progress has been seen.
    Response. DOL/VETS has been working diligently to improve 
engagement with the private sector as detailed in the response to 
questions 8 and 9. For example, in Hawaii, we have connected our state 
team, DVOPs and LVERs, with the President of the Hawaii Chamber of 
Commerce, President of the Better Business Bureau, the Executive 
Director of the Hawaii Science and Technology Council, and other 
leaders in the area of employment.

    Question 11. At that same August hearing you mentioned that VA 
should consider finding a means to provide coverage for Veterans across 
the Asia-Pacific region, as there are no VA staff in more remote 
locations like Guam, Tinian, and Saipan. What measures are you taking 
to help Veterans in these and other remote areas find employment?
    Response. One of our priorities is ensuring that Veterans in remote 
location such as Guam, Tinian, and Saipan, and in rural locations 
across America, receive the best possible programs and services. We are 
currently reviewing the issue of resource allocation within this Asia-
Pacific region. Additionally, one of the ways we ensure these Veterans 
have the best possible service is by providing them priority of service 
within the DOL One-Stop Career Centers. I have signed a joint policy 
directive with the Assistant Secretary of the Employment and Training 
Administration that specifies how priority of service will be 
implemented. I will be checking on its implementation through field 
visits and site inspections as well as through reports from other VETS 
leaders. This will ensure that Veterans are served first and receive 
priority for training funds.

    Question 12. One of our witnesses this morning from America Works, 
Inc. operates a pay-for-performance model of employment assistance. Are 
you familiar with this type of model and do you think any lessons 
learned from this type of program might be of value to the State-grant 
program of D-VOPS and L-VERS?
    Response. We were present to hear firsthand about the operating 
model of America Works, Inc. One of our on-going activities is to be 
aware of, and learn from, different models of service delivery. We 
incorporate these lessons learned in discussions about assessing the 
merits, impact, and opportunities inherent in different delivery 
systems.

    Question 13. The National Organization on Disability is conducting 
a pilot program in conjunction with the Department of the Army to 
provide assistance to soldiers who are seriously disabled while on 
active duty. It seems to me that much of what they are learning may be 
of value to your Real Lifeline initiative. What lessons do you think 
you could learn from this pilot?
    Response. VETS is always looking for ideas and ways to improve the 
effectiveness, efficiency and long term impact of its programs. The NOD 
model substantiates our belief that effective transition assistance to 
seriously disabled Veterans requires a holistic, multi-service model. 
The role of VETS' REALifelines program in this model is to provide the 
life and career planning component. Nevertheless, there are other 
necessary components, such as transportation needs, child care, and 
payment of incidental expenses (e.g. utility bills). REALifelines plays 
a critical role in the recovery and reintegration of severely disabled 
Veterans. In addition, through a joint initiative between VETS and 
DOL's Office of Disability Employment Policy, entitled ``America's 
Heroes at Work'' (which specifically targets returning Service Members 
with PTSD/TBI injuries, VETS staff have twice met with NOD project 
staff to discuss areas of collaboration.

    Question 14. What type of ``assessment'' do DVOPs and L-V ERs carry 
out to determine whether a Veteran or servicemember is emotionally or 
mentally ready to pursue employment opportunities?
    Response. Our DVOPs and LVERs do not provide professional or formal 
assessments of a Veteran or Service Member's emotional or mental 
suitability for employment. Assessments of this type require a great 
deal of training and experience and are best restricted to licensed 
practitioners. Our DVOP and LVER staff is trained to recognize some of 
the traits and signs of PTSD and refer individuals having them to 
appropriate professional service providers. Of note, DOL's relationship 
with VA permits referral of Veterans to VA's VR&E program for 
specialized assessments and tailored rehabilitation services that will 
assist them with job readiness training leading to successful 
employment.

    Question 15. How many Veterans were served by the Homeless Veterans 
Reintegration Programs in FY 2009?
    Response. The program operates on the basis of a program year (July 
1-June 30) and not a fiscal year (October 1-September 30). During 
Program Year 2008, which began July 1, 2008, and ended on June 30, 
2009, HVRP served 13,735 homeless Veterans and placed 7,265 of them 
into employment.
                                 ______
                                 
  Response to Post-Hearing Question Submitted by Hon. Patty Murray to 
   Raymond Jefferson, Assistant Secretary, Veterans' Employment and 
               Training Service, U.S. Department of Labor

    Question 1. The recent case of Kirkendall  v. Department of the 
Army, which concerned Veteran's preferences in Federal employment, 
highlighted the challenge of making sure Veterans' preferences in 
Federal employment are uniformly applied. As I understand the case, a 
U.S. Court of Appeals court held that the Army had violated 
Kirkendall's right to have his Veteran's preference considered, after 
years of pressing for his Veteran's preference status to be applied in 
a hiring evaluation.
    Do you think the Federal Government or the Department of Labor has 
a role in making it easier for a Veteran to include his Veteran status 
in the Federal job application process? Does it make sense to explore 
an automated job application process? Does it make sense to explore an 
automated job application system that includes Veterans status? I 
understand, for instance, that an automated system is already 
configured and tested for DOD and endorsed by the American Legion--is 
the Department of Labor or other Federal agencies considering the 
implementation of such a system?
    Response. The Federal Government already has access to an automated 
job applications process. The Department of Labor, as with many other 
Federal agencies, currently has user-friendly processes and procedures 
in place that make it easier for Veterans to apply for Federal 
positions. The automated job application system permits the Veteran to 
provide specific information about military service and Veterans 
preference acquired from that honorable service. However, improvements 
can be made. John Berry, Director of the Office of Personnel Management 
has committed to making improvements to this process and is utilizing 
his Chief Human Capital Officer's Council to aid in this pursuit. We do 
not have any information on the DOD system referenced in your question, 
but we will follow up with DOD to learn more.

    Chairman Akaka. Thank you very much, Mr. Secretary.
    Let me ask Senator Begich for any opening remarks that he 
may have.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, not at this time. I will just 
get into questions. That is fine.
    Chairman Akaka. Thank you very much, Senator Begich.
    Secretary Jefferson, you have many resources and tools 
available to you, including all the assets of the Labor 
Department. And, of course, the question is, what else do you 
need?
    Secretary Jefferson. Yes.
    Chairman Akaka. So my question to you is what one tool do 
you think you are missing that would help you most?
    Secretary Jefferson. That is a great question, Senator. 
Truthfully, it is one that I have reflected on. I would say not 
a tool that I am missing but a tool which I continue to look 
forward to, which is learning what other service providers in 
the community are doing to serve veterans. We are aware of the 
programs and services that we have. We are developing 
relationships with other service providers in government and 
the private sector and in the non-profit arena.
    But one of the things which is very helpful to me and my 
team and this Committee has been very supportive of that and 
provided tremendous assistance is making us aware of other 
programs. I have recently become aware of Hire America's 
Heroes, which Senator Murray recently spoke about. When I look 
at models like that, it gives us ideas on how we can better 
improve our programs and share best practices.
    Chairman Akaka. President Obama recently signed an 
executive order to establish a Council on Veterans' Employment. 
Secretary of Labor Hilda Solis has been named co-chair of the 
new council.
    What will your role and that of Veterans' Employment and 
Training Services be?
    Secretary Jefferson. Well, Senator, this is something that 
we are very excited about--essentially mobilizing the entire 
Federal Government. We will be doing several things. One, we 
have access to the supply, roughly 150,000 transitioning 
servicemembers every year who come through the Transition 
Assistance Program and our 2,000 employment representatives and 
DVOPs and LVERs. So, we will be mobilizing them to make the 
unemployed veterans and the transitioning servicemembers aware 
of this new opportunity.
    We are also going to be working very closely with the other 
departments to see which are the best practices that are 
emerging. We know that the Department of Homeland Security 
recently came up with a very good Web site that they are using; 
looking at all the different steps that each department is 
taking to make progress on and get the most impact out of this 
initiative and communicating those throughout the Federal 
Government, but also really emphasizing to make sure that the 
veterans and servicemembers through our staff and the staff we 
work with are aware of these programs and encouraging them to 
take advantage of this significant opportunity.
    Chairman Akaka. Over the years, Secretary, Congress has 
made many attempts to reinforce veterans preference laws and to 
provide many veteran hiring authorities to make certain that 
individuals who have served their country have opportunities to 
continue their service in a civilian capacity. However, there 
are those who would suggest that veterans' preference is not 
properly honored.
    How will this new council make sure that veterans do 
receive the hiring preferences they have earned?
    Secretary Jefferson. Yes. Well, Senator, veterans' 
preference--we will be emphasizing that as a very important 
complement to the veterans' hiring initiative. The veterans' 
preference is an important step that takes place, of course, 
when the veterans apply for these positions, and this council 
will be emphasizing veterans' preference and the application of 
that and ensure that it is integrated into all of the 
applications of veterans who are applying for these new roles. 
So, we will be emphasizing its importance throughout the 
Department and ensuring that the potential that it has to help 
veterans in their employment is fully realized.
    Chairman Akaka. According to OPM's latest report, DOL has 
more than 15,000 employees but less than 1,600--that is about 
17 percent--are veterans. What plans do you have to increase 
those numbers?
    Secretary Jefferson. A lot. And I just want to reiterate, 
Senator, that this is a top priority of Secretary Solis. We 
will be looking at all aspects of the hiring process to make 
sure that they are veteran-friendly, to make sure we will be 
doing more outreach into new communities, and also ensuring 
that we mobilize all of our top facilitators and team members 
throughout the Nation and also our employment representatives 
to make sure that they are aware of all the opportunities in 
all Federal agencies.
    Specifically, at Labor, we will be looking and working very 
closely with our H.R. team to develop--through Web sites, 
through our outreach programs--more targeted efforts and 
messages that speak directly to veterans and transitioning 
servicemembers. This is a huge opportunity for us, and it is 
one we are very excited about.
    Chairman Akaka. Thank you for your responses.
    Senator Tester?
    Senator Tester. Thank you, Chairman Akaka.
    Once again, welcome, Assistant Secretary Jefferson.
    Let me touch on a couple things, the incarcerated veterans 
program that you spoke of, that is in your purview, correct?
    Secretary Jefferson. Yes, sir.
    Senator Tester. We just had a hearing last week in a 
different committee, about 130,000 homeless vets and about 
40,000 veterans that have come out of incarceration every year. 
I do not know if that figure is absolutely correct. You can 
probably correct me if I am wrong, but there is quite a few.
    Secretary Jefferson. Yes, sir.
    Senator Tester. Could you explain to me what you are able 
to do with that program? Are you able to catch them while they 
are still being incarcerated or is it a program that works with 
the vets only after they get out? Just give me a real brief 
rundown on what it does and how effective it is.
    Secretary Jefferson. Yes, sir. This is a program which used 
to be in existence, was not, and we are bringing it back. We 
are doing this in cooperation with the Department of Veterans 
Affairs. We think that there is a holistic approach that needs 
to be taken that involves the employment pieces that I will 
talk about but also veterans courts, which is something that 
the VA is making progress on.
    Specifically, sir, the model essentially is going into the 
prisons and facilities, providing employment training there. It 
is not like the Homeless Veterans' Reintegration Program sites 
where incarcerated veterans transitioning would come and would 
live there full-time. But we would be going in to provide them 
employment training provide them access to jobs, and take in 
some of the TAP-type training, which we have, and providing 
those to the incarcerated veterans so that they can make a 
seamless transition.
    Senator Tester. OK. And how long--the program was 
reestablished when?
    Secretary Jefferson. We are in the process right now, sir, 
of reestablishing that. We are going to have 12 sites and, 
roughly, we have funding to serve about 1,500 incarcerated 
veterans through those 12 sites.
    Senator Tester. I got you. OK.
    Well, at some point, could you give me a rundown on where 
those sites are?
    Secretary Jefferson. Yes, sir.
    Senator Tester. You do not have to do now, just give it to 
us for the record.
    Secretary Jefferson. Yes, sir.
    Senator Tester. I appreciate that.
    You talked about new content in the workshop for review.
    Secretary Jefferson. Yes, sir.
    Senator Tester. Could you give me an example of what kind 
of new content you have?
    Secretary Jefferson. Sir, right now, there is a tremendous 
emphasis on building the resume. What we have been doing over 
the 100 days is talking to different experts in the field of 
transition, in areas relating to human development, to look at 
what can be brought in differently; so, more experiential 
training, training on how to develop one's network, training on 
what they call how to articulate your value proposition and, 
also, to have better approaches to those topics than the ones 
we currently have.
    Senator Tester. OK. Currently, with the Local Veterans' 
Employment reps, it is a half-time person for every 350 vets in 
the region. I think that is correct.
    Secretary Jefferson. Well, sir, we have our LVERs and DVOPs 
who are serving full-time.
    Senator Tester. Yes, OK. But you have to have--the 
information I have got is if you have 350 vets----
    Secretary Jefferson. Yes, sir.
    Senator Tester [continuing]. That is where you start with a 
half-time position. If you have more than that, I assume it 
goes up.
    Secretary Jefferson. Yes, sir.
    Senator Tester. You had talked about--and we can talk about 
outside Indian country in a minute. But you said inside Indian 
country there was a tribal leader summit.
    Secretary Jefferson. Yes, sir.
    Senator Tester. They came forth, hopefully offered you some 
creative ideas on how you can help them because there are some 
big issues out there.
    I guess the question I have is how do you serve Indian 
country right now, Native American reservations right now? And 
are those leaders part of the equation? And, if so, how is that 
working?
    Secretary Jefferson. Yes.
    Senator Tester. Are you bringing people from the outside in 
or are you hiring people from the inside? How is that working?
    Secretary Jefferson. Sir, first let me say that we need to 
do a much better job with this, very candidly, and it is a huge 
opportunity. We have a study right now, which is talking to a 
lot of the tribal leaders and representatives from different 
Native American groups to give us an accurate present-time 
assessment of what we should be doing.
    But right now, we are providing service through our DVOPs, 
through our LVERs, through our State directors and teams. I 
have asked my regional administrators to spend more time on the 
tribal lands, and we will be working with and connecting with 
the tribal nation leaders to develop new and more effective 
ways to provide that service.
    Senator Tester. OK. I think, you said it best in your very 
first words when you said, we have got a problem, but there is 
tremendous opportunity in the solution to that problem.
    Secretary Jefferson. Yes, sir.
    Senator Tester. And I wish you the best. Anything I can 
help you with on with that, I would be more than happy to put 
you at least in contact with folks.
    The Disabled Veterans' Outreach Program, from your 
perspective, 100 days on the job, how is it working in rural 
and frontier America?
    Secretary Jefferson. Yes. Two thoughts, sir. First, we need 
to do a much more effective job with our outreach to employers. 
And that is a new model that I am developing where our DVOPs 
and LVERs are connecting with the Chambers of Commerce in the 
local areas, the high-tech associations, and the economic 
develop boards in bringing them together with the veterans and 
transitioning servicemembers.
    In terms of rural America, sir, I have some thoughts. One 
is partnerships. We need to broaden our capacity, and I have 
called a meeting together with the Corporation for National 
Service for the first 2 weeks of December, which now has a 
veterans volunteer initiative as well as Service Nation, which 
also have a veterans volunteer initiative. Both of these are--
the first is a government agency; the second is supported by 
the White House--we want to talk with them about how we can 
leverage volunteers to assist us with greater outreach to the 
rural communities.
    Senator Tester. OK. I am hoping we are having a second 
round, and we will follow up with some more questions.
    Secretary Jefferson. Thank you, sir.
    Senator Tester. Thank you, Mr. Secretary.
    Chairman Akaka. Thank you very much, Senator Tester.
    Senator Begich?
    Senator Begich. Thank you very much.
    Secretary, thank you for your work in regards to veterans 
and employment. If I can expand a little bit on Senator 
Tester's commentary, being from Alaska, we also have a very 
strong rural component of our State but also of Indian country.
    I was listening carefully to what you were describing to 
Senator Tester. What it sounds like--and I do not want to put 
words in your mouth and I want this viewed as positive--that 
there has been not an aggressive approach to reaching out to 
rural communities, especially American Indian country.
    Is that a fair statement?
    Secretary Jefferson. Senator, when I took office 100 years 
ago----
    Senator Begich. A 100 days ago. [Laughter.]
    I like the way he looks for 100 years.
    Secretary Jefferson. It has been a lot of midnights.
    Senator Begich. It feels like 100 years, I know.
    Secretary Jefferson. But, Senator, I am just not satisfied.
    Senator Begich. OK.
    Secretary Jefferson. I realize that with the resources we 
have, we have to work--working harder is not going to get it. 
We have to work more innovatively. And I think there are just 
two key components. The first is the dialog we are having with 
the Native American veterans and tribal leaders; and also, as 
Senator Tester earlier alluded to, broadening that to the 
representatives of the rural community to find out from them 
what will best serve them.
    Then what I am looking at is partnerships--partnerships 
with other government agencies and, specifically, non-profits. 
I think some of these new veteran volunteer initiatives can be 
helpful there.
    Senator Begich. Because this is another issue I am dealing 
with and I know others who have Indian country are dealing it; 
are you familiar with the 8(a) programs?
    Secretary Jefferson. Yes, sir.
    Senator Begich. Do you see an opportunity that 8(a) 
programs could--in Alaska it is very unique because all our 
native village corporations and corporations have some 
component of 8(a)s and are in the efforts of hiring thousands 
of people throughout the world, literally.
    Do you see that as an opening of opportunity to work with 
the 8(a) corporations to look at veteran hires among Indian 
country veterans?
    Secretary Jefferson. Yes, sir. One of the things that we 
are doing right now is bringing together the Department of 
Commerce, Small Business Administration, VA's employment 
representatives, Minority Business Development Agency, and 
other government agencies who work in the area of commerce and 
also entrepreneurship, to look at how together we can work more 
synergistically to promote more veterans' employment but also 
veterans' entrepreneurship. Programs such as 8(a) can be a very 
valuable tool to increased hiring not just of Native American 
veterans but other veterans who are underrepresented in the 
workplace.
    Senator Begich. Very good. One, this is more of a footnote, 
and we will be happy to follow this up with you. You know we 
have DVOPs and LVERs--a pretty good staff--within Alaska, but 
one of the areas that we have a gap is the Regional Technical 
Assistance Center. And that is, we do not have one. Our closest 
one is in Washington State.
    I love my Senator Murray, but we would love also to be 
considered because of our vastness. As I describe to people, 
you go from Kodiak, AK, kind of in the low-mid interior area, 
down deeper up to the North Slope. That is like going from New 
York to Louisiana.
    Secretary Jefferson. Yes.
    Senator Begich. So, is it something if we--I am going to 
write you a note on this. I would like you to kind of give us 
some feedback. We think the Regional Technical Assistance 
Center is critical for how vast our State is, and we have more 
and more veterans living in rural Alaska and growing very 
rapidly.
    So, is that something that you would at least consider 
looking at to see how that fits in?
    Secretary Jefferson. Sir, we would love to. I welcome that 
suggestion and any others ideas that you have.
    Senator Begich. Great. The other is--and I do not know if 
this falls in your area, but as you do employment and training, 
what do you do in the area--and if you do not, who does--in the 
area of the self-employed? I know a lot of veterans create 
their own business opportunities, and it is a very exciting 
opportunity, and in a lot of ways they are very successful.
    Secretary Jefferson. Yes.
    Senator Begich. There have been great success stories by 
self-employed veterans. What role do you play and what role do 
you think you could play additionally?
    Secretary Jefferson. Well, the reason I am smiling is this 
is something that I am very excited about. We are working to 
connect Commerce Department, Small Business Administration, and 
Minority Business Development Administration. One of the things 
we are focusing on is entrepreneurship, promoting veterans' 
entrepreneurship. We have broadened our stakeholder outreach 
for the veterans service organizations. We have broadened the 
V.O.B.A. that serves as the voice of veterans entrepreneurs.
    So, this is a huge opportunity. Helping veterans and 
transitioning servicemembers obtain meaningful careers with 
large or small companies is fantastic. Equally important is 
emphasizing their potential and supporting them to become 
entrepreneurs in their own right. And as the Senator saw from 
retired Captain Dawn Halfaker, many of these veteran CEOs hire 
extraordinary numbers of veterans. In her company, around 200 
to 300 employees, 85 percent, are veterans. So, we are going to 
be really pushing and championing veteran entrepreneurship.
    Senator Begich. As you progress on that, I would be very 
interested in that as you have these joint meetings.
    Secretary Jefferson. Yes, sir.
    Senator Begich. Just because I think there is a lot of 
opportunity----
    Secretary Jefferson. Significant.
    Senator Begich [continuing]. In the role here in the 
Veterans Committee, but I also sit on the Commerce Committee. 
So, I would be very interested in what your thoughts are, and 
those initiatives.
    Secretary Jefferson. Yes.
    Senator Begich. Again, in Alaska, 52 percent of our 
employment is driven by small business, self-employed. So I 
would be very interested in this area.
    Secretary Jefferson. I am just pleased to share that the 
Deputy Secretary of Commerce, Dennis Hightower, also a Vietnam 
veteran, is a partner with us in this. We have already been 
working together seamlessly, and we are also connecting with 
the Innovation and Entrepreneurship Council at the Commerce 
Department on this.
    Senator Begich. Very good. Thank you very much. I will see 
you in your next hundred years.
    [Laughter.]
    Secretary Jefferson. All right. Hopefully, I will be just 
as energetic. All right, sir.
    Chairman Akaka. Thank you, Senator Begich.
    And now we will have questions from Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Secretary Jefferson, I have held a lot of roundtables 
around my State talking to both veterans and employers about 
this issue of jobs and creating jobs and the obstacles that 
they face. One of them that I hear constantly is how do we 
match a veteran's skills and their experience with the needs of 
potential employers.
    I know that as our veterans move through their military 
careers, they gain a lot of really important skills, especially 
for a lot of these mid-level jobs that are available that the 
employers are interested in. But when a veteran tries to 
present their skills on a piece of paper, on a resume, the 
transferability of those skills is often lost in translation by 
the time the resume sits in a stack with a whole lot of others 
in front of an employer.
    Secretary Jefferson. Yes.
    Senator Murray. And I wanted to ask you how you were 
working with our veterans to help them better translate the 
skills and experience they have into something that they can 
put on a resume.
    Secretary Jefferson. Yes, Senator, what you shared is one 
of the potentially greatest opportunities before us. We are 
going to be doing two demonstration projects with the 
Employment Training Administration to look at how we can do 
accelerated credentialing and certifications, and a component 
of that will be the translation.
    Truthfully, what I realize is between the supply--the 
unemployed veterans and transitioning servicemembers--and the 
demand--the companies, government, non-profit, public sector 
that want veterans--there are a lot of programs and Web sites 
out there that deal with translation, but it is almost 
confusing. I have gotten this feedback from veterans service 
organizations and from the veterans themselves.
    The huge opportunity is for us to develop a way to bring 
order and some organization to the many efforts to do military 
skills translation into the civilian job needs. So, we are 
working on that. I do not have the answer, but I know that is 
one of the top questions and a significant opportunity.
    Senator Murray. OK. It is not in just how the veterans put 
it on the paper. It is how an employer reads that resume.
    Secretary Jefferson. Yes.
    Senator Murray. Are we working with employers on that?
    Secretary Jefferson. Senator, we want to connect with the 
Society for Human Resource Management to work with the human 
resource departments, and we will be talking about this in our 
meeting with the Chamber of Commerce in early 2010 because you 
are exactly right.
    There is an educational element in the human resource 
departments for them to be able to interpret, translate, match, 
and allocate the human talent of the veterans. But we also want 
to start on the front end to make sure that veterans make it 
easy for the private sector employers and other employers to 
know how to best leverage their military skills and training.
    Senator Murray. OK. Do you have any recommendations how we 
can improve TAP to help our servicemembers?
    Secretary Jefferson. Significantly. First of all, the 
content is a huge thing. TAP really has not been transformed or 
really improved since 1992, so we have a program which is 
roughly 17 years old. One of the things is to look at the 
different topics: how do you articulate your value proposition; 
how do you develop a customer service mindset; what are the 
nuances of succeeding in a civilian environment versus a 
military; and then bringing in the latest best practices and 
thinking. We are talking to different leaders in the areas to 
find out what is the latest thinking, and then presenting it in 
a way in which is engaging so veterans not only learn and find 
immediately applicable content, but they enjoy the experience 
and they become a champion and a spokesman to encourage other 
veterans.
    So, we are working on that very hard, and I expect that we 
will have information that we can share in early 2010.
    Senator Murray. OK. Great. I look forward to that.
    The other part of the equation is our educational 
institutions. We have a program in my home State--the 
University of Washington runs a physician assistant training 
program. It is called MEDEX. It is focused on training people 
with prior health experience who want to get into a new 
profession in health as a physician assistant. And as part of 
the program application, veterans with military medical 
training and experience get basic credit toward that PA 
training.
    It is having great results for the students, the veterans, 
the university, as well as all those communities that those 
trained people then go into, especially in our rural areas. And 
I think it is a great example of how we can match a veteran's 
experience with one of the real growing needs for our country.
    So I wanted to ask you, first of all, if you are aware of 
the program, but second, what we are doing with educational 
institutions to accept those kinds of----
    Secretary Jefferson. Right. I was not aware of that 
program, but my special assistant in the back is taking copious 
notes and we will be looking into it after this.
    Senator Murray. OK.
    Secretary Jefferson. But two things, Senator. The first is 
working very closely with VA, raising awareness of the new GI 
Bill as we work with our folks in TAP and also unemployed 
veterans, for those who would qualify, making sure they are 
aware of it.
    But the other part is this, learning from those folks who 
have the need. We have broadened our veterans service 
organization outreach. We have developed a relationship with 
the Student Veterans of America. This is probably at this point 
one of the premier, if not the premier, veterans service 
organizations serving the transitioning servicemembers who are 
on the campuses. We are working very closely with them. We have 
had several meetings to find out how we mobilize our resources 
to support exactly what you are talking about, the veterans who 
are coming back and who are on the campuses right now.
    Senator Murray. Because one of the things I hear from 
veterans a lot is they do not get credit at educational 
institutions for a lot of the work and experience they have.
    Secretary Jefferson. Yes.
    Senator Murray. Mr. Chairman, thank you very much. I 
appreciate the opportunity.
    Chairman Akaka. Thank you very much, Senator Murray.
    We will do a second round of questions here.
    Secretary Jefferson, I know that the Department submitted 
comments in writing on S. 1607----
    Secretary Jefferson. Yes.
    Chairman Akaka [continuing]. The proposed Wounded Veterans 
Job Security Act of 2009.
    For the benefit of those who may not have had the 
opportunity to review those comments, could you briefly 
summarize the Department's view on that measure?
    Secretary Jefferson. Yes, Senator. Senator, we want to make 
sure that the overall purpose of the bill, which is ensuring 
that servicemembers who are now working as employees, who have 
a service-connected disability, do not need to choose between 
work and risking losing their jobs by taking time off from 
work. We want to ensure that they are not in that situation.
    At the same time, we feel that the current state of the 
legislation could have a chilling effect, that it could reduce 
employer's likelihood of hiring veterans and maybe choose a 
non-veteran so they do not have to worry about losing that 
person for a portion of time.
    Both of these, ensuring that employers do not have reduced 
veterans hiring and also protecting our veterans and ensuring 
that they can get the medical attention they need while they 
are working, are very important priorities. What we would like 
to do is to work with the bill's sponsors on crafting the 
legislation so that both of these important goals can be 
accomplished.
    Chairman Akaka. Secretary Jefferson, do you see any merit 
in making TAP participation mandatory across the service 
branches?
    Secretary Jefferson. Yes. Well, Senator, I know that is a 
question that we have discussed in the past. I do need to say 
that we honor and respect the Department of Defense's role in 
that decision to determine if it is mandatory or not. And the 
area that we want to focus on is improving the employment 
outcomes for those participants but also making it a more 
engaging program.
    One of the ways--when you have a program which is voluntary 
for all the services besides the Marine Corps, to increase 
participation is when the word in the servicemember community 
is that this is an outstanding program.
    Chairman Akaka. Secretary Jefferson, in your testimony, you 
discussed DOL's efforts to engage employers and promote the 
value of hiring veterans.
    Secretary Jefferson. Yes.
    Chairman Akaka. Does DOL have or plan to have any efforts 
to coordinate with non-government agencies that provide 
employment services such as some of the groups on our second 
panel?
    Secretary Jefferson. Yes. Senator, we are always interested 
to meet service providers, especially in the area of 
employment, to look at ways that we can partner to increase 
capacity, provide stronger outreach, or to share ideas which 
can result in more best practices.
    Chairman Akaka. It seems that we need to be focusing on 
helping veterans find meaningful and productive careers.
    Secretary Jefferson. Yes.
    Chairman Akaka. What will you do to prioritize this need?
    Secretary Jefferson. Sure. Well, Senator, several things. 
One is the outreach that we are doing with employers. So, with 
the private sector outreach, working with the business 
associations, making sure that they are aware of the value 
proposition of hiring veterans and looking to develop targeted 
partnerships so we can have accelerated hiring of veterans. 
Second, also raising awareness of and emphasizing the Federal 
Government's hiring initiative. Third, there is the work 
opportunity tax credit, also known as WOTC, which provides tax 
incentives for hiring veterans. We want to work with our 
stakeholders to raise awareness of this among employers.
    Then, the fourth is making sure that there are no veterans 
lost. We have the America's Heroes at Work program for the 
returning warriors who have PTSD/TBI. We also have the 
REALifelines for those who have had severe injuries. So, we are 
making sure that we capture and serve all and really emphasize 
the outreach component. The employers have the jobs; we want to 
connect them with the veterans and servicemembers.
    Chairman Akaka. Thank you very much.
    Senator Murray, do you have----
    Senator Murray. I will pass on the second round.
    Chairman Akaka. Senator Tester?
    Senator Tester. Thank you, Chairman Akaka.
    Just very quickly, as you could tell by my first round of 
questions, I have got concerns about rural and frontier areas 
where veterans live----
    Secretary Jefferson. Yes, sir.
    Senator Tester [continuing]. Whether it is with the 
Homeless Veterans' Reintegration Program, whether it is with 
the Disabled Veterans' Outreach Program, LVERs and others.
    I mean, 100 days is not very long, a little over 3 months.
    Secretary Jefferson. Yes, sir.
    Senator Tester. Have you really had a chance to sit down 
and evaluate how these programs are working in rural/frontier 
America? All of Montana is rural. We have got towns of 100,000 
that I think is a big city, from my perspective.
    Secretary Jefferson. Yes.
    Senator Tester. We have got towns, a lot of towns, of 700, 
300, 150 and so on.
    Secretary Jefferson. Yes.
    Senator Tester. Have you had a chance to take a look and 
see how these programs are working in those areas?
    Secretary Jefferson. Sir, yes----
    Senator Tester. Because 100 days ain't a lot.
    Secretary Jefferson. Sir, I have asked for several things. 
First, shortly after being confirmed, I directed my staff to 
connect with VA to see what they are doing, how can we partner, 
what best practices they have. They have a rural initiative, I 
understand. We have learned that it focuses on health, but we 
are working to see what can we do to either share resources, to 
increase our outreach, to bring more employment; is there any 
way that we can partner there. So, recognizing that Veterans 
Affairs has tremendous resources, that is one.
    Second, through my regional administrators, I have gotten 
feedback from them and ideas on how we can better serve the 
rural communities. And then third, specifically, going deep 
with the Native American veterans and the tribal leaders on 
that.
    The area that I think--the potential here is through 
partnerships. The question I have asked myself is how do we 
serve veterans who are geographically disbursed over broad 
areas, and I think two things. One is this new idea I wanted to 
explore, which is working with Service Nation and the 
Corporation for National Service through their veterans 
initiative to see if we can get some real capacity and 
assistance there. I think that could really be an opportunity.
    The second, sir, is leveraging technology. For those who 
have Internet access, looking at how we can do more with 
technology. Very candidly, I am not satisfied yet. This is a 
priority, and I recognize that we need to come up with more 
innovative ways and also leverage partnerships.
    Senator Tester. I am not going to put you on the spot on 
the example that I had in my opening, at the very end of it, 
about the veteran that comes back. I think that situation is 
real, and I think it happens a lot. But the whole line of 
question indicates--it really does indicate to me that I really 
need to get you to places like Montana, Alaska, Eastern 
Washington, wherever----
    Secretary Jefferson. Yes.
    Senator Tester [continuing]. So we can see if that 
infrastructure that you are talking about is even there to be 
able to partner with.
    Secretary Jefferson. Yes.
    Senator Tester. And then if it is not there, what do we do.
    Secretary Jefferson. Sir, if your schedule will allow it, I 
would be honored to come after having these meetings at the end 
of this year, to explore these possible partnerships, maybe to 
connect with you and some of the other Senators to talk about 
ways that we can--and obtain insights from yourselves and your 
staff, show you what we have been developing and really develop 
something which will work or at least some pilot programs.
    Senator Tester. I appreciate that. I appreciate your 
service very much.
    Secretary Jefferson. All right, sir. Thank you, sir.
    Chairman Akaka. Thank you.
    Senator Begich. Mr. Chairman, just a quick additional 
question.
    And thank you, Secretary, for that offer. I think all of 
us, at least this table, would probably take up that offer. I 
think that is a great offer, an opportunity for us to really 
hone in on what we can do in rural and frontier America, and 
make sure we have the programs that are meeting the needs of 
our veterans, but especially veterans living on Indian country. 
So, thank you for that willingness.
    Secretary Jefferson. Yes, sir.
    Senator Begich. This is more of a question, and I do not 
know if there is a real solid answer that you can give at this 
point. But as I was looking at some of the data points, the one 
that stuck out to me was veterans' unemployment rate. When you 
look at October 1980 compared to October 1990, you go from 
about 4.9 to 11.9. The rate just skyrockets.
    Can you give me some commentary on why you think that 
occurred in that one specific group in a pretty significant 
way?
    Secretary Jefferson. Well, I think there are four reasons 
why we have the high veterans' unemployment rate, especially 
for the veterans ages 20 to 24.
    Senator Begich. And especially in the women category.
    Secretary Jefferson. Yes, sir. So actually, with regards to 
the women, I would like to provide more details for the record, 
if I could.
    Senator Begich. Sure.
    Secretary Jefferson. But some general reasons why we see 
this spike. One is with the increased service overseas, many 
veterans when they come back, they have been in a very 
stressful situation, so they are just taking some time off to 
transition. They have access to unemployment insurance, so they 
are using that unemployment insurance to live off of. Some of 
them have decided to go for the new GI Bill, so they are not 
working and they are waiting to enter school. So, those are 
three of the sources from our feedback and assessments as to 
why we are seeing that rate.
    Senator Begich. Very good. And if you could then, for the 
record, I appreciate that, with regards to the women and the 
change, that would be great.
    Secretary Jefferson. Yes, sir.
    Senator Begich. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Senator Begich.
    I want to thank the first panelist and witness, Mr. 
Secretary, for your responses. It will be helpful. We want to 
continue to work closely with you and really move the 
employment for our veterans throughout the country.
    Secretary Jefferson. Well, Senator, if I can just say in 
closing, we take this very seriously. And there are some things 
that we are making progress on and we feel good about that, but 
there are some other opportunities. We are only going to 
address these challenges in partnership with your support and 
with your insights. And I just want to acknowledge many members 
of my team who are here today, many members of the veterans 
service organizations who are an invaluable source of insight, 
and the other stakeholders. So thank you so much, and we will 
look forward to the next opportunity to brief you.
    Chairman Akaka. Thank you for your closing statement, and I 
wish you well.
    Secretary Jefferson. Thank you, sir. Aloha.
    Chairman Akaka. Aloha.
    Now, I want to welcome our second panel to the desk.
    Our first witness is Lutz Ziob, general manager for 
Microsoft. The next witness on the panel is Captain Peter 
``Bull Frog'' Wikul, USN retired, America Works of New York, 
Incorporated. Next we have Joshua Lawton-Belous, an OIF veteran 
and business analyst at Oracle Corporation. We also have Dexter 
Daniel, a Vietnam veteran and now a senior event coordinator 
for Marriott. Our final witness on the second panel is Helen 
Tymes, a career specialist at the National Organization on 
Disability.
    I thank you all for being here this morning. Your full 
testimony will, of course, appear in the record.
    Mr. Ziob, will you please present your testimony first?

           STATEMENT OF LUTZ ZIOB, GENERAL MANAGER, 
              MICROSOFT LEARNING, MICROSOFT, INC.

    Mr. Ziob. Thank you. Good morning, Chairman Akaka, Senator 
Murray, Senators. I really appreciate the opportunity to appear 
here today and discuss matters related to the employment and 
training issues barriers facing our returning veteran 
servicemembers.
    My testimony today will address from an industry 
perspective the challenges faced, current actions, and 
opportunities for collaboration. Additionally, I will highlight 
the importance of what we call a tripartite approach: involving 
government, education, and industry to help ensure that our 
veterans and their families receive access to the training and 
education resources they need to transition smoothly and 
successfully into sustainable, family wage civilian work.
    In the 21st century, occupations are evolving faster than 
ever before, largely driven by the rapid pace of technology 
innovation. Information technology has become so pervasive in 
the working world that almost every job requires some level of 
IT skills. This transformation gives birth to totally new job 
categories like a cyber forensic specialist. But it also 
affects traditional non-IT-related jobs, for example, in 
manufacturing, construction, hospitality, or even health care.
    Veterans returning to civilian employment will encounter a 
new world of work whether they find ways into IT jobs or not. 
They will be expected to communicate via e-mail and instant 
messaging; participate and run virtual meetings; collaborate on 
projects with team members who rarely meet face-to-face, if at 
all; find and analyze data online and demonstrate an aptitude 
for adapting constantly to changing circumstances.
    How we prepare citizens for jobs is rapidly evolving as 
well. Education itself has changed and veterans will have to 
become 21st century learners. The new world of learning mirrors 
the new world of working. Both worlds heavily rely on the use 
of information technology. Information technology has 
consequently grown to be the fourth foundational knowledge 
domain joining our traditional three Rs of education.
    Industry and defense have enjoyed a longstanding history of 
sharing talent. Investment in training and education have 
created a few bridges for soldiers to move successfully from 
civilian to Armed Services responsibilities and vice versa. 
However, evolving job responsibilities and requirements and 
changing hiring expectations make more formalized approaches to 
creating these bridges necessary.
    We need bridges that support accountability and 
measurability in addition to establishing standards of 
excellence in training and development. Amongst U.S. 
businesses, the most widely accepted proof of employee's 
technical skills are industry certifications, especially for 
job seekers without the relevant work experience. Military 
organizations have also learned to recognize the value of 
certifications for their workforce needs in addition to formal 
degrees or proven work experience. For example, Directive 8570 
from the U.S. Department of Defense itself provides for 
specific job roles, funding for industry credentials that meet 
quality standards under the ANSI 17024 accreditation.
    Members of the Armed Forces are taught early in their 
training to rely on experience and mentorship of those cohorts 
to achieve professional excellence. We at Microsoft have 
witnessed the powerful impact of mentoring veterans first-hand 
through a joint project with veterans at the Walter Reed Army 
Medical Center.
    Working with soldiers on medical hold recovering from 
injuries, volunteers from our Microsoft Certified Trainer 
community mentored soldiers as they studied for their Microsoft 
certification examinations. Soldiers were matched with 
experienced trainers whose areas of expertise matched the 
veterans' areas of study, thus helping the learner soldier to 
benefit from the mentor's real-world experience and 
professional background.
    Motivated by the community support, the majority of 
veterans went to tackle the exams successfully. Mentoring and 
coaching, hence, are proven ways for established IT workers to 
give back to the local communities and service communities. I 
call it a form of professional citizenship. Creating mentoring 
relationships and internships are critically important, 
especially for younger veterans who lack the hands-on 
experience.
    Another important consideration for current returning 
veterans is the economic stability of their families. Service-
disabled veterans face the challenge of coping with their 
injuries in addition to the challenge of changing employment. 
The recent reports of veterans' families receiving food stamps 
while they are on deployment illustrate the economic challenges 
of spousal unemployment. We must provide immediate career 
retraining assistance to injured veterans early and as part of 
their convalescence. Rather than waiting for months for 
extended veterans benefits, retraining benefits should be 
accessible to servicemembers before they exit military hospital 
facilities.
    The recent economic events have strained the capacity of 
career education programs at community and technical colleges 
at a time when student demand is, in fact, rising. Meanwhile, 
unused teaching capacity exists among high-quality private 
education providers faced with reduced demand from their 
existing commercial customer base. These training institutions 
have certified trainers, well-equipped classrooms and access to 
state-of-the-art information technology. Providing veterans 
training and certification benefits through these private 
training organizations in partnership with other workforce 
readiness stakeholders is worthy of serious consideration by 
policymakers.
    Affordable access to modern information technology for 
teaching and learning purpose is of the utmost importance. 
Programs like the Microsoft IT Academy or Cisco Networking 
Academy program ensure that community colleges, technical 
colleges, and other schools have access to the latest 
technology and curriculum. Additionally, we can quickly expand 
the capacity for teaching and learning by tapping into the rich 
system of online courses, virtual classrooms, and online hands 
on apps.
    In conclusion, there is clear evidence that all jobs that 
veterans are likely to return to in the U.S. market will 
increasingly be technology rich. Whether these new jobs are in 
clean or green industries, health care or manufacturing, 
hospitality or financial services, they all require a certain 
level of information technology and productivity skills if 
workers are to compete successfully.
    Job-seeking veterans also need improved access to the most 
current technology instruction combined with hands-on exposure 
to this technology plus real-world experience, for example, in 
the form of mentoring, industry internships and career 
guidance. To effectively reach a larger group of returning 
veterans, we clearly have to make better use of modern 
technology.
    We strongly advocate a truly cooperative tripartite 
approach, especially in times of economic crisis. Public and 
private sectors need to work hand-in-hand with all branches of 
our Armed Services to provide real-world training and highly 
valued credentials that will lead to promising and well-paying 
careers. We applaud the new GI Bill which recognizes the role 
of private training providers and expanding the availability of 
industry-supported instructions and certifications.
    We look forward to working with this Committee, other 
Members of Congress, veterans service organizations, and key 
Federal Government departments to provide our returning 
servicemembers the skills and qualifications that will help 
them to secure family wage jobs of the future.
    This concludes my statement, and I am looking forward to 
answering questions later on.
    [The prepared statement of Mr. Ziob follows:]

 Written Testimony of Lutz Ziob, General Manager, Microsoft Learning, 
                         Microsoft Corporation

    Chairman Akaka, Ranking Member Burr, and distinguished Members of 
the Veterans' Affairs Committee. I sincerely appreciate the opportunity 
to appear before you today to discuss matters related to the employment 
and training issues and barriers facing our returning veteran 
servicemembers. My testimony today will address, from an industry 
perspective, the challenges faced, current actions, and opportunities 
for collaboration. Additionally, I will highlight the importance of a 
tripartite approach involving government, education, and industry to 
help ensure that our veterans and their families receive access to the 
training and education resources they need to transition smoothly and 
successfully into sustainable, family wage civilian work.

                           CURRENT CHALLENGES

    In the 21st century, occupations and employment are evolving faster 
than ever before, largely driven by the rapid pace of technology 
innovation and change. Information technology has become so pervasive 
in the working world that almost every job requires some level of IT 
understanding and skills. This occupation revolution affects non-IT 
related jobs, like manufacturing, construction, or even nursing, and 
gives birth to new job categories, such as Cyber Forensic Specialist or 
Enterprise Network Architect.
    How we prepare citizens for jobs is quickly evolving as well. 
Learning itself has changed and veterans will have to learn to study 
and prepare efficiently in the 21st century. The new world of learning 
mirrors the new world of working that EVERY veteran returning to 
civilian employment will encounter, whether they find their way into IT 
jobs or not! They will be expected to communicate via email and instant 
messaging, participate in virtual meetings, find and evaluate data 
online, present their analysis on knowledge-sharing portals, 
collaborate on projects with team members that rarely meet face-to-
face. And hiring managers today are recruiting employees who have 
project management skills, demonstrate agility, and have an aptitude 
for adapting to new circumstances and challenges. In the new ``flat 
world', we are constantly developing new skills, using them, and 
refining them repeatedly. Veterans transitioning into civilian and 
government jobs face employment challenges that require skills and 
experience in modern information technology. IT has consequently been 
added as the 4th knowledge pillar side-by-side to the traditional 3 R's 
of basic education.

   LEVERAGING THE SKILLS LINK BETWEEN DEFENSE, EDUCATION AND INDUSTRY

    Industry and defense enjoy a long standing history of sharing 
talent. Investments in training and education have created some bridges 
for soldiers to move successfully from civilian to armed services 
responsibilities and vice versa. However, evolving job requirements and 
changing hiring expectations, now make a more formalized approach to 
creating these bridges necessary. We require a bridge building approach 
that adopts accountability and measurement as primary tenets in 
addition to establishing standards of excellence in training and 
development. Among U.S. businesses, the most widely accepted proof for 
demonstrating the quality of employees' technology skills are industry 
certifications, especially for job candidates without relevant working 
experience. Military organizations also have learned to recognize the 
value of certifications for their workforce needs. The U.S. Department 
of Defense provides funding for certain job roles in (DOD) Directive 
8570 for industry credentials which meet the quality standards of the 
ANSI 17024 accreditation. We are witnessing a growing trend by DOD and 
other government agencies to accept industry credentials for validating 
professional skills and capabilities in addition to formal degree, and 
proven work experience.

                           VETERANS' FAMILIES

    Another important consideration for current and returning veterans 
is the economic stability of their families. Service-disabled veterans 
face the challenge of coping with their injuries in addition to the 
challenges of changing employment. The recent reports of veterans' 
families receiving food stamps while they are on deployment starkly 
illustrate the economic challenges of spousal unemployment. We must 
provide immediate career retraining assistance to injured veterans 
early and as part of their convalescence. Rather than waiting months 
for extended veterans' benefits, retraining benefits should be 
accessible to servicemembers before their exit from military hospital 
facilities. We must also extend these career training benefits to 
spouses of military veterans in order to maximize their chances for 
employment in family wage jobs while their veteran spouse adjusts to 
re-entering the workforce.

                  COACHING, COMMUNITY AND INTERNSHIPS

    Members of the Armed Forces are taught early in their training to 
rely on the experience and mentorship of their cohorts to achieve 
professional excellence. Microsoft's experience working with veterans 
at Walter Reed Army Medical Center, allowed us to witness firsthand the 
powerful impact of mentoring veterans. Working with soldiers on Medical 
Hold recovering from a variety of injuries, volunteers from the 
Microsoft Certified Trainer community mentored soldiers as they studied 
for their Microsoft Certification examinations. Soldiers were matched 
with a trainers whose areas of expertise matched the veteran's areas of 
interest, thus helping the learning soldier to more deeply connect with 
the mentor while benefiting from the mentors' real-world experience and 
professional capabilities. Motivated by this community support, the 
majority of the veterans went on to take their first exam successfully 
in December 2008.
    Mentoring and coaching are effective forms of professional 
citizenship and a proven way for established IT workers to give back to 
their local and Services' communities. Support for programs that 
encourage coaching and foster community support for veterans should be 
supported by government initiatives and contributions. A system for the 
creation of mentoring relationships and internships to develop hands-on 
experience is critically important especially for younger veterans. As 
evidence from the U.S. Bureau of Labor Statistics shows, inexperienced 
veterans in the age range of 18-24 years are particularly vulnerable to 
long term unemployment.

                           EXPANDING CAPACITY

    Recent economic events have further strained the capacity of career 
education programs at community and technical colleges and universities 
at a time when student demand is rising across the country. Meanwhile, 
unused teaching capacity exists among high-quality private education 
providers faced with reduced demand from their existing commercial 
customer base. Leading technology companies, including Microsoft and 
its network of thousands of partners in the U.S., rely on the 
established network of over 350 private education providers to train 
and certify 150,000 to 200,000 technology professionals in the U.S. 
annually. These training institutions have fully qualified, certified 
trainers, well-furnished and equipped classrooms and access to state-
of-the art information technology products. Providing veterans training 
and certification benefits through these private training 
organizations, in partnership with other workforce stakeholders, is 
worthy of serious consideration by policymakers. The expanded tuition 
benefits included in the New GI Bill are a big step in the right 
direction of providing access to more training options for returning 
servicemembers. I applaud the pioneering work of the Members of this 
Committee in creating these new opportunities.

                          ACCESS TO TECHNOLOGY

    Access to state-of-the art information technology for teaching and 
learning purposes is of utmost importance, but it needs to be provided 
in an easily accessible, cost efficient way. Programs like Microsoft IT 
Academy and Cisco Networking Academy Program ensure that community 
colleges, technical colleges and other schools have access to the 
latest technology, software, curriculum and industry certification 
exams.
    We can expand our capacity for teaching and learning by tapping 
into the rich system of online learning courses, virtual classrooms and 
online hands-on-labs. Technology learning and workforce development 
training are already provided as offerings ``in the cloud''--or in 
plain English: students and teachers can access curriculum, data 
storage, hardware and software as a hosted service online.
    We know from our experience that veterans are also interested in 
setting up their own businesses. As new entrepreneurs, they need help 
and support. In addition to understanding how to use information 
technology effectively, they also need convenient, affordable access to 
the latest technologies that will help them to start their own business 
and keep it growing. Understanding the needs of new entrepreneurs, 
Microsoft has launched BizSpark, a program that provides full access to 
the latest Microsoft technology for startups free of charge while they 
are striving to reach profitability. BizSpark eliminates the need for 
cash investments in information systems early in the startup phase of 
their business, allowing funds from programs such as Small Business 
Administration to be used for other critical business related 
investments.

                        CONTINUING THE MOMENTUM

    Moving forward, Microsoft endorses the recommendations made earlier 
by the National Center for Women & Information Technology, and offers 
additional ideas for intervention. In their ``Elements of a Military 
Pathways Program'' proposal, NCWIT makes recommendations for an 
education program that employs the skills of returning members of the 
military who have already received non-traditional IT education as a 
part of military service:

    <bullet> The requirement that each member of the military have his/
her Lifetime Education Plan to better provide them with the required 
education to assist transition into the civilian population.
    <bullet> The requirement that all advisors at National Veterans 
Training Institutes be certified in providing information on higher 
education in IT.
    <bullet> Remote learning opportunities for active duty members of 
the military in which credit earned could be applied to the completion 
of a four year or higher education degree in IT.
    <bullet> The substitution of on-the-job training for the coursework 
requirement in preparation for IT licensing exams.
    <bullet> Financial incentives for colleges, universities, and 
authorized organizations to institute this program and provide on-
campus IT-tailored mentoring.

    While we have made some progress in these areas since this proposal 
was first presented, more can be done to address the immediate needs of 
veterans, including:

    <bullet> Promoting learning plans that link military occupation 
specialties for job roles to civilian job roles.
    <bullet> Awareness campaigns for military personnel and employers 
around the skills bridges being built between military and civilian 
jobs.
    <bullet> Early access to separation training benefits to reduce the 
number of veterans dependent on Unemployment Compensation for Ex-
servicemembers (UCX)
    <bullet> Assuring access to industry certification programs will 
not only secure the prompt restoration to duty following uniformed 
service as required by the Uniformed Services Employment and 
Reemployment Rights Act, but will also keep those who serve at the top 
of their careers after prolonged deployments.

            MICROSOFT ENGAGEMENTS FOR WORKFORCE DEVELOPMENT

    Microsoft invests in skills programs for workforce development in 
three primary areas: programs for underserved communities, programs 
among and for educational institutions and programs for jobs creation 
through entrepreneurship.
Programs for Underserved Communities
            Microsoft Unlimited Potential
    By working with partners to create relevant training opportunities 
and innovative tools for people who are underserved by technology, we 
believe we can help foster social and economic opportunities that 
change people's lives and transform communities. As part of the 
Microsoft Unlimited Potential commitment, our employability and 
workforce development programs support organizations that work to 
ensure that individuals have the IT skills they need to succeed in the 
21st-century workplace.
    For nearly a decade, Microsoft has been working with nonprofit 
organizations around the world to support technology skills training 
programs in local communities. Our corporate donations of cash, 
software and free training curriculum have helped ensure that millions 
of individuals have access to the training and education resources they 
need to begin developing the technology skills that employers seek in 
our 21st-century workplace.
    Examples include:

    Workforce Development Council of Seattle-King County; Seattle, WA: 
The Workforce Development Council (WDC) projects connect businesses and 
job seekers by providing the necessary resources and tools for 
successful employment, lifelong learning, and business development. 
Microsoft Unlimited Potential funding supports WDC technology 
implementation and training efforts across the state to ensure a strong 
and vital economy.
    Iredell Statesville Community Enrichment Corporation; Statesville, 
NC: A Microsoft Unlimited Potential grant enabled the Iredell Community 
Technology Institute's CTLC to open lab number 4, run in partnership 
with the Boys & Girls Club of Piedmont. Low-income and underserved 
communities are benefiting from the training designed to prepare 
students to meet future the job market demands with a special emphasis 
on Science, Technology, Engineering, and Math, coupled by robust tools 
that include the Unlimited Potential curriculum and basic computer 
skills.
    Mission West Virginia; Hurricane, WV: The Build It, Keep It, Share 
It Program (BIKISI) received a multi-year Microsoft Unlimited Potential 
grant to support education in underserved and unemployed local 
communities. Without Microsoft support, Mission West Virginia would not 
be able to fund training in Digital Literacy. With more than 1,500 
people having received their Digital Literacy certificates in the last 
year alone, this program provides a beneficial training opportunity for 
local residents.
            Microsoft Elevate America
    As a continuation of our commitment to helping individuals develop 
the skills they need for success in the workplace, we launched 
Microsoft Elevate America in February 2009.
    Elevate America is an initiative designed to provide one million 
Microsoft E-Learning courses and select Microsoft Certification exams 
at no cost to recipients. Microsoft works with a designated agency in 
each state to implement Elevate America and ensure that the training 
benefits are delivered effectively and efficiently. Elevate America 
will be implemented in cooperation with states across the country as 
part of our overall effort to help train 2 million people over the next 
three years.
    Through Elevate America, individuals receive ``vouchers'' that are 
redeemable, at no cost, for Microsoft online learning courses and 
industry recognized certification exams. The learning offered through 
Elevate America is available at beginning, intermediate and advanced 
levels so individuals can select the trainings most appropriate for 
their needs. Microsoft certification exams are offered in Microsoft 
Windows and Office, the programs that are in most demand from employers 
across industries and across sectors.
    Completing these training programs and achieving a Microsoft 
certification, together with other training and support helps make an 
individual more employable and more prepared to meet the demands and 
needs of the 21st-century workplace.
    To date, Elevate America has been implemented in: Washington, 
Virginia, Illinois, Iowa, Maryland, Mississippi and Missouri. We are in 
discussions with a number of states and expect additional launches in 
the coming months.
Programs Among and for Educational Institutions
    Microsoft partners with education communities around the world to 
deliver a relevant and effective scalable set of technologies, services 
and programs that focus on building digital literacy for all 
individuals. Microsoft's Community Technology Skills Program has 
reached over 160 million people around the world since 2003, while the 
Partners in Learning effort has reached 135 million people in the same 
time period. Together, these two programs alone have reached more than 
a quarter of a billion people in less than a decade.
    In addition to the reach and scale that these numbers imply, when 
people are trained on internationally recognized standards and 
certifications, cross-country skills matches are possible, a critical 
component of economies wishing to develop knowledge workers who will be 
competitive in the global marketplace.
    Along with Microsoft training and certification, the consistency of 
the platform and its resources give policymakers, learners and 
educators peace of mind that their investments in training and 
education are secure and will keep pace with technology as it develops.
    Microsoft is passionate about facilitating the success of each 
educator and learner and expanding the power of education for all 
through personalized learning. The following programs are excellent 
starting points for discussions on how partnering with Microsoft can 
drive universal digital enablement in cost-effective ways in the 21st 
century.
            Microsoft Partnerships for Technology Access (PTA)
    Microsoft Partnerships for Technology Access (PTA) helps 
governments achieve policy objectives through public-private 
partnerships (PPPs) that deliver technology solutions to underserved 
communities and students. PTA's guiding principle is that technology 
can be a powerful enabler of development goals when driven by country 
stakeholders, embedded in public services and delivered through a 
network that leverages the strengths of the public and private sectors. 
In education, Microsoft PTA programs look to provide educators and 
learners with access to training and technologies to facilitate 
learning, increase digital teaching skills, and prepare for the future.
    The mission of Microsoft PTA is to make PCs relevant and affordable 
to citizens everywhere through public-private partnerships (PPPs).
            Microsoft Community Technology Skills Program
    The Microsoft Community Technology Skills Program works with 
partners to create training opportunities for people underserved by 
technology:

    <bullet> Cash grants, software and specialized curricula for non-
profit community technology centers.
    <bullet> A framework for institutions to deliver IT skills to 
communities that previously would not have had access to these skills.
    <bullet> Students in these communities the opportunities to gain 
essential computer skills that will equip them to compete more 
effectively in the job market.
    <bullet> Support for stronger community based organizations 
providing IT skills for lifelong learning.
            Microsoft Digital Literacy Curriculum
    Microsoft has two key initiatives which address lifelong learning 
and skills development: Partners in Learning (PiL), and Unlimited 
Potential (UP). These are complemented by the Microsoft Digital 
Literacy curriculum, which builds on the existing two initiatives.
    Microsoft Digital Literacy focuses on teaching and assessing basic 
computer concepts and skills so that people can use computer technology 
in everyday life to develop new social and economic opportunities for 
themselves, their families, and their communities. The program offers:

    <bullet> A curriculum of 5 e-learning courses, 5 online assessments 
and a certificate test, totaling 30 hours of learning to equip 
students, faculty and staff across all disciplines with a standard, 
internationally recognized level of computer skills.
    <bullet> Accessible, easy to use, self paced introduction to the 
basics of computing.
    <bullet> Learners develop the essential skills needed to use 
computers with confidence whether at work or for personal use.
            Microsoft IT Academy
    The Microsoft IT Academy program enables academic learning 
institutions to connect the world of education to the world of work by 
enabling faculty and students to acquire new technology skills in an 
academic setting. Microsoft IT Academies benefit from world-class 
Microsoft curriculum and cutting-edge software tools to experience 
real-world challenges in the classroom environment. Microsoft IT 
Academy can help to create a future-ready, IT literate workforce to 
meet the demands of a job market that is now global and more 
competitive than ever. The program offers:

    <bullet> Access to Microsoft software and resources with academic 
pricing for Microsoft certification exams.
    <bullet> Online curricula for academic institutions to provide work 
related IT skills.
    <bullet> Students the opportunity to develop the relevant IT skills 
to progress and develop in the work place.
    <bullet> Internationally recognized qualifications.
    <bullet> A platform for future personal development.
            Microsoft Students to Business
    The Students to Business (S2B) program is a Microsoft Community 
Initiative designed to connect Microsoft partners and customers with 
qualified students for entry-level and internship positions.
    The objective of the S2B program is to inspire local businesses to 
communicate the competency requirements for new talent, to evaluate the 
skills of students ready for an entry-level job or internship and 
collaborate with Microsoft and local education institutions to provide 
the curriculum and training needed to ensure students are prepared to 
meet the innovation needs of company's around the globe.
    Students engaged in S2B benefit from unique mentoring, training and 
certification opportunities. Various offerings are available to 
students at each stage of S2B--when profiling, in application and after 
their job connection.
Programs for Entrepreneurs
            BizSpark
    BizSpark is an innovative global program designed to unite startups 
and resources to support them into a single community. BizSpark is 
uniquely designed to help startups engaged in software development, by 
offering Software, Support and Visibility:

    <bullet> Software: BizSpark provides fast and easy access to 
Microsoft tools and technologies, for their immediate use in design, 
development, testing, demonstration, and hosted application production 
and deployment;
    <bullet> Support: Professional Technical Support from Microsoft, 
including, for entrepreneurs working with early adopter technologies: 
access to unlimited email support, online training and invitations to 
local technical events. Examples of early adopter technologies: 
Windows 7, Microsoft Silverlight, Windows Azure and Microsoft SQL 
Server 2008 as well as a connection to Network Partners, organizations 
that provide programs, mentoring and other resources to Startups;
    <bullet> Visibility: The opportunity for global visibility on the 
MicrosoftStartupZone Web site via the BizSparkDB, an online Startup 
directory, hosted on http://www.microsoftstartupzone.com/bizspark.

                               CONCLUSION

    There is clear evidence that all jobs that veterans are likely to 
return in the U.S. labor market will increasingly be technology rich. 
Whether these new jobs are in clean or green industries, health care, 
hospitality or financial services, they will all require a certain 
level of information technology and productivity skills if workers are 
to compete successfully for these family wage jobs. Making broader use 
of portable, industry-led certifications and credentials is critically 
important to ensuring up-to-date skills, business relevance and 
employability.
    Given the fast pace of technology innovation and the ever changing 
requirements of our modern workplace, we have to make better use of 
modern technology to scale workforce readiness and instruction to a 
larger group of veteran job seekers. Much of this learning and 
instruction will be facilitated by information technology, with online 
and distance learning offerings likely to become the prevalent form of 
skills acquisition.
    To be successful, especially in times of economic crisis, we need a 
truly cooperative, tripartite approach where the public and private 
sectors work hand-in-hand with all branches of our Armed Services to 
provide the kind of efficient, real-world training and credential 
solutions that will lead to attractive, well-paying careers.
    For the new skills and workforce readiness paradigm to be 
successful, veterans need better access to the most current technology 
instruction, combined with hands-on experience of the technology, plus 
real-world advice, for example in form of mentoring, internship and 
career guidance provided by private teaching organizations.
    We applaud the new GI Bill as a huge step in the right direction. 
It provides funding for private training providers and recognizes their 
role in expanding the availability of up-to-date, industry supported 
skills instruction and certifications. The nimbleness of their course 
offerings, their qualified trainer availability, and their existing 
classroom and assessment capacity, enhance workforce readiness 
provisions across the country while at the same time maximizing scarce 
public resources.
    At Microsoft, we believe that building effective bridges for our 
returning servicemembers into civilian employment is morally the right 
thing to do for our veterans--but it also is a vital business 
imperative and in fact, increasingly a matter of national security for 
our country.
    We look forward to working with this Committee, other Members of 
Congress, veteran's services organizations, and key Federal Government 
departments to rethink how, why and where we provide for the re-
skilling of our returning servicemembers to better enable them to 
secure family wage jobs of the future. I know all of us in this room 
are committed to working in partnership to realize this laudable and 
critically important goal.

    This concludes my statement. I would be pleased to answer any 
questions the Members of the Committee may have.

    Chairman Akaka. Thank you very much, Mr. Ziob.
    And now we have the statement and testimony of Captain 
Wikul.

   STATEMENT OF CAPTAIN PETER ``BULL FROG'' WIKUL, U.S. NAVY 
       (RET.), DIRECTOR, AMERICA WORKS OF NEW YORK, INC.

    Captain Wikul. Chairman Akaka, Aloha. Ranking Member Burr, 
distinguished members of the U.S. Senate Committee on Veterans' 
Affairs, Good morning.
    Chairman Akaka. Good morning.
    Captain Wikul. On behalf of America Works of New York, 
Inc., Chief Executive Officer Dr. Lee Bowes and, founder, Mr. 
Peter Cove, I would like to express our gratitude for the 
opportunity to be here today to address the U.S. Senate 
Committee on Veterans' Affairs about our veterans' employment 
programs.
    My name is Captain Pete Wikul. I served 39 years and 4 
months in the U.S. Navy, 38 years as a Navy SEAL. I was known 
as the Bull Frog, which is a title used to refer to the longest 
serving U.S. Navy SEAL on active duty. I recently retired on 
October 1. In 1988, I was honored to share the Nobel Peace 
Prize as one of the few U.S. Naval officers assigned to the 
United Nations military observer group in Lebanon. I am here 
today as Director for America Works veterans programs.
    America Works is a private, for-profit, performance-based 
workforce development firm that has placed hard-to-serve 
populations in employment since 1984. We get people jobs. We 
are right down in the trenches. We have helped low-income 
individuals and public assistance recipients across a broad 
demographic spectrum become self-sufficient by obtaining and 
retaining jobs--not just getting them but keeping them--or 
improving on their career positions. We work with Americans who 
are on public assistance, receiving food stamps, the formerly 
incarcerated, youths aging out of foster care, the homeless and 
sheltered, non-custodial parents, people living with HIV/AIDS 
and veterans of the U.S. Armed Forces.
    America Works was the pioneer company whose work led to the 
1996 Personal Responsibility and Work Opportunity 
Reconciliation Act, moving national welfare programs from 
subsistence to back-to-work programs. To date, America Works 
has placed over 175,000 hard-to-serve individuals into jobs in 
cities across the United States. That is 175,000 jobs in 25 
years. That is a very good metric.
    We currently have offices throughout New York State, New 
Jersey, Maryland, and California, and soon in North Carolina 
and Pennsylvania, and now I am an office of one in Washington, 
D.C.
    Why veterans? Over the last few years, America Works has 
seen a growing number of veterans coming into our offices 
seeking employment. These veterans come to us through our 
homeless programs, food stamp programs, welfare programs and 
frequently through our ex-offender programs.
    Concerned about our country's heroes rapidly sinking into 
the depths of poverty, we began researching what services were 
available for veterans. We found that while the Department of 
Veterans Affairs states that nearly 200,000 servicemembers 
separate from the military each year, and right now another 
200,000 veterans are incarcerated, there are few to no direct 
employment service provided to veterans by either the 
Department of Veteran Affairs or by the Department of Defense.
    At a time when our national unemployment rate tops 10.2 
percent and the national poverty rate grows every day, we need 
to provide better enhanced services to the men and women who 
risk their lives for our country. In order to do this, America 
Works has begun leveraging funds from other national-scale 
programs to provide services to some of the veterans in most 
need, but still significantly more needs to be done.
    The types of veterans we serve. Currently, we serve 
veterans through several different programs. We actively serve 
veterans receiving public assistance, food stamps, veterans who 
have HIV/AIDS, veterans receiving SSI and SSDI benefits, 
formerly incarcerated veterans, veterans who are non-custodial 
parents, and homeless and sheltered veterans who participate in 
our Homeless Veterans' Reintegration Program, the HRVP.
    While it seems we are serving many veterans through our 
numerous programs, we lack the funding to provide preventative 
direct employment services so that veterans do not have to 
become homeless or receive welfare or steal for their food to 
be in our programs. It is too much of a tragedy to allow these 
veterans to languish on poverty after they have given 
everything they could for our country to not provide them 
better services.
    Our model. So what is the answer? How do we provide 
appropriate, effective and timely services for veterans from 
transition onwards? The answer is work-first programs that 
provide direct, rapid attachment to the workforce. These are 
not programs that provide training for a job that does not 
exist, and these are not programs that refer veterans to Web 
sites where they can virtually apply to jobs for which they 
will not receive a call back. These are programs that directly 
link the veteran--the man or woman, who has served and 
protected us--to a real, live job that exists in the job market 
right now. We get them interviews so they can get on the job 
immediately.
    To ensure performance, the government only pays these 
programs after the veteran is actively working on the job. 
There is no room for error in this model because if you cannot 
get people jobs, you simply lose the program. These programs do 
not make money until the veteran, him or herself, is making 
money. These concepts have been the bedrock upon which America 
Works has been built. This bedrock has led to over 175,000 
individuals obtaining and retaining employment across the 
United States.
    What we have learned. Through our work with these amazing 
servicemen and women, we have learned many lessons that should 
be taken to heart. First, our Nation's veterans want to work. 
Our veterans will certainly experience difficulties and 
hardships, but they want to work and continue to be the 
breadwinner for themselves and their families.
    In the first 9 months of 2009, we have placed over 180 
veterans in employment in New York City with an average hourly 
salary of approximately $10. That is above the minimum wage, so 
that is good. And we did the majority of this without even 
having a direct veteran funded program.
    Second, there is an exigent need for direct employment 
services for veterans. While veterans are motivated, many 
cannot find employers and they will struggle with barriers that 
will prevent them from successfully obtaining and retaining 
employment on their own.
    Performance-based contracted services are needed to 
effectively provide job placement service to veterans today. 
Our veterans are fighting with over 20 million other unemployed 
Americans for a limited amount of jobs, and they deserve a leg 
up in the competition.
    Third, companies are not only willing to hire veterans but 
actively seek out veterans to employ. The problem is one of 
time and resources. Companies need to fill positions quickly, 
and they do no have the resources to advertise at length for 
veteran-only employment opportunities. Through a service like 
ours, companies can call us up and ask us to fill jobs with 
veterans that same day, and that is how we get them interviews.
    Finally, the VA alone should not be the only champion in 
this fight to implement employment programs of the breadth and 
scale necessary for today's veteran population. We believe that 
through strategic partnerships, the Department of Defense, the 
Department of Veteran Affairs, and private contractors can 
provide performance-based transition programs and assist in 
programs to current veterans nationwide.
    Our recommendations. We have four, and I will finish this 
up quickly. We recommend the following steps to be taken 
immediately to help our veterans from today onwards.
    One, we need to design and provide specific direct-service 
employment programs to aid in transitioning today's military 
into successfully employing veterans. This service should be 
offered from transition onwards and would work in collaboration 
with current services, including the Transition Assistance 
Program and vocational rehabilitation. These programs will be 
pay-for-performance to ensure that our servicemen and women 
obtain and retain civilian employment.
    Two, in light of the number of wounded warriors returning 
from our 21st century conflicts, we need to provide these 
direct employment services to spouses and dependents of 
veterans. A wounded warrior needs his family to heal, but he or 
she also needs income to provide stability. We propose to offer 
these employment programs for the spouses and dependents of 
wounded warriors nationwide. This can begin by working with 
families who are staying at Fisher Houses as well as wounded 
warriors beginning the healing process. Jobs will be found to 
accommodate caring for the wounded warrior while also providing 
economic stability.
    Three, the U.S. Department of Labor has designed 
specialized employment programs for veterans, and these need to 
be expanded. In particular, the Homeless Veterans' 
Reintegration Program has provided much needed help to homeless 
veterans nationwide. This program should be expanded to help 
thousands of other homeless veterans. Programs for incarcerated 
veterans should also be provided nationwide to address the 
particular needs of incarcerated veterans.
    Finally, let us show you an America Works veterans' 
employment program. In D.C. today, there are over 30,000 
veterans and an unemployment rate of 11.4 percent. Allow 
America Works to provide a direct employment program here in 
Washington, DC, to some of the unemployed veterans and show you 
that our model works. With $1 million in funding, we can place 
and retain at least 200 veterans in permanent employment. We 
could bring you 200 success stories on this day next year, and 
I will have it done before then.
    As a veteran and brother in arms with the men and women I 
have met in America Works programs, I ask you today to make a 
real change for veterans and their families nationwide. Our 
servicemen and servicewomen have served us, and it is now our 
responsibility to serve them.
    One final thing. On the way over here to testify, I was 
walking across from Union Station, and I saw the homeless 
sleeping out on the benches. And I stopped to one of them, and 
he was a wearing a fatigue jacket with 101st Airborne symbol. 
So I asked him. I said, ``Are you a veteran?'' And he looked at 
me, and he said, ``Yes, sir.'' And so I stopped to talk to him, 
and I said, ``Are you homeless?'' He said, ``Yes, sir.'' ``Do 
you have a job?'' ``No, sir.''
    So we chatted a little bit, and I took out my wallet and I 
gave him a 20-dollar-bill. And I said, ``I would like you to 
have a nice lunch, God bless you,'' and I walked away.
    This needs to be fixed, and I aim to help fix it.
    Chairman Akaka, Ranking Member Burr, and Distinguished 
Members of the U.S. Senate Committee on Veterans' Affairs, 
thank you very much for your time.
    [The prepared statement of Captain Wikul follows:]
   Prepared Statement of Retired Captain Peter ``Bull Frog'' Wikul, 
               Director, America Works of New York, Inc.
    Chairman Akaka, Ranking Member Burr, and Distinguished Members of 
the U.S. Senate Committee on Veterans' Affairs, good morning.
    On behalf of America Works of New York, Inc. Chief Executive 
Officer Dr. Lee Bowes and Founder Mr. Peter Cove, I would like to 
express our gratitude for the opportunity to be here today to address 
the U.S. Senate Committee on Veterans' Affairs about our Veterans 
Employment Programs.
    My name is Captain Pete Wikul. I served thirty nine years in the 
United States Navy. I was known as the ``Bullfrog'' which is a title 
used to refer to the longest serving US Navy SEAL on active duty. I 
recently retired on October 1st. In 1988 I was honored to share the 
Nobel Peace Prize as one of the few US Naval Officers assigned as a 
United Nations Military Observer in Lebanon. I am here today as 
Director for America Works Veterans' Programs.

                               WHO WE ARE

    America Works is a private, for-profit performance-based workforce 
development firm that has places hard-to-serve populations in 
employment since 1984. We have helped low-income individuals and public 
assistance recipients across a broad demographic spectrum become self-
sufficient by obtaining and retaining jobs, or improving their career 
positions. We work with Americans who are on public assistance, 
receiving food stamps, the formerly incarcerated, youths aging out of 
foster care, the homeless and sheltered, non-custodial parents, people 
living with HIV/AIDS and Veterans of the United States Armed Forces.
    America Works was the pioneer company whose work led to the 1996 
Personal Responsibility and Work Opportunity Reconciliation Act, moving 
national welfare programs from subsistence to back-to-work programs.
    To date, America Works has placed over 175,000 hard-to-serve 
individuals into jobs in cities across the United States. We currently 
have offices throughout New York State, New Jersey, Maryland, and 
California, and soon in North Carolina and Pennsylvania.

                              WHY VETERANS

    Over the last few years America Works has seen a growing number of 
Veterans coming into our offices seeking employment. These Veterans 
came to us through our homeless programs, food stamps programs, welfare 
programs, and frequently through our ex-offender programs. Concerned 
about our country's heroes rapidly sinking into the depths of poverty, 
we began researching what services were available for Veterans. We 
found that while the Department of Veterans Affairs states that 
``nearly 200,000 servicemembers separate from the military each year'' 
and that right now another 200,000 Veterans are incarcerated, there are 
few to no direct employment services provided to Veterans by either the 
Department of Veteran Affairs or by the Department of Defense. In a 
time when our national unemployment rate tops 10.2% and the national 
poverty rate grows every day, we need to provide better, enhanced 
services to the men and women who risk their lives for our country. In 
order to do this, America Works has begun leveraging funds from other 
national scale programs to provide services to some of the Veterans in 
most need, but still, significantly more needs to be done.

                       TYPES OF VETERANS WE SERVE

    Currently, we serve Veterans through several different programs. We 
actively serve Veterans receiving:

    1. Public Assistance
    2. Food Stamps
    3. Veterans who have HIV / AIDS
    4. Veterans receiving SSI and SSDI Benefits
    5. Formerly Incarcerated Veterans
    6. Veterans who are Non-custodial parents
    7. Homeless and Sheltered Veterans who participate in our Homeless 
Veterans' Reintegration Program (HVRP)

    While it seems we are serving many Veterans through our numerous 
programs, we lack the funding to provide preventive, direct employment 
services so that Veterans do not have to become homeless or receive 
welfare or steal for their food to be in our programs. It is too much 
of a tragedy to allow these Veterans to languish in poverty after they 
have given everything they could for their country to not provide them 
better services.

                               OUR MODEL

    So what is the answer? How do we provide appropriate, effective, 
and timely services for Veterans from transition onwards? The answer is 
work-first programming; programs that provide direct, rapid attachment 
to the workforce. These are not programs that provide training for a 
job that doesn't exist and, these are not programs that refer Veterans 
to Web sites where they can virtually apply to jobs for which they will 
not receive a call back. These are programs that directly link the 
Veteran, the man or woman who served and protected us, to a real live 
job that exists in the job market right now. To ensure performance, the 
government only pays these programs after the Veteran is actively 
working on the job. There is no room for error in this model because if 
you can't get people jobs, you simply lose the program. These programs 
don't make money until the Veteran, him or herself, is making money. 
These concepts have been the bedrock upon which America Works has been 
built. This bedrock has led to over 175,000 individuals obtaining and 
retaining employment across the United States.

                          WHAT WE HAVE LEARNED

    Through our work with these amazing servicemen and women, we have 
learned many lessons that should be taken to heart. First, our Nation's 
Veterans want to work. Our Veterans will certainly experience 
difficulties and hardships, but they want to work and continue to be 
the breadwinner for themselves and their families. In the first nine 
months of 2009, we have placed over 180 Veterans in employment in New 
York City with an average hourly salary of approximately $10.00. And we 
did the majority of this without even having a direct Veteran funded 
program.
    Second, there is an exigent need for direct employment services for 
Veterans. While Veterans are motivated, many cannot find employers and 
they will struggle with barriers that will prevent them from 
successfully obtaining and retaining employment on their own. 
Performance-based contracted services are needed to effectively provide 
job placement services to Veterans today. Our Veterans are fighting 
with over 20 million other unemployed Americans for a limited amount of 
jobs and they deserve a leg up in the competition.
    Third, companies are not only willing to hire Veterans but actively 
seek out Veterans to employ. The problem is one of time and resources. 
Companies need to fill positions quickly and they don't have the 
resources to advertise at length for Veteran-only employment 
opportunities. Through a service like ours, companies can call us up 
and ask us to fill jobs with Veterans that same day.
    Finally, the VA alone should not be the only champion in this fight 
to implement employment programs of the breadth and scale necessary for 
today's Veteran population. We believe that through strategic 
partnerships, the Department of Defense, the Department of Veteran 
Affairs and private contractors can provide performance-based 
transition programs and assistance programs to current Veterans 
nationwide.

                          OUR RECOMMENDATIONS

    We recommend the following steps be taken immediately to help our 
Veterans from today onwards:

    1. We need to design and provide specific, direct service 
employment programs to aide in transitioning today's military into 
successfully employed Veterans. This service should be offered from 
transition onwards, and would work in collaboration with current 
services, including the Transition Assistance Program and Vocational 
Rehabilitation. These programs will be pay-for-performance to ensure 
that our service men and women obtain and retain civilian employment.
    2. In light of the number of wounded warriors returning from our 
21st century conflicts, we also need to provide these direct employment 
services to spouses and dependents of Veterans. A wounded warrior needs 
his family to heal, but he or she also needs income to provide 
stability. We propose to offer these employment programs for the 
spouses and dependents of wounded warriors nationwide. This can begin 
by working with families who are staying at Fisher Houses as their 
wounded warriors begin the healing process. Jobs will be found to 
accommodate caring for the wounded warrior while also providing 
economic stability.
    3. The United State Department of Labor has designed specialized 
employment programs for Veterans, and these need to be expanded. In 
particular, the Homeless Veterans' Reintegration Program has provided 
much needed help to homeless Veterans nationwide. This program should 
be expanded to help thousands of other homeless Veterans. Programs for 
incarcerated Veterans should also be provided nationwide to address the 
particular needs of incarcerated Veterans.
    4. Finally, let us show you an America Works Veterans Employment 
Program. In DC today, there are over 30,000 Veterans, and an 
unemployment rate of 11.4%. Allow America Works to provide a direct 
employment program here in DC to some of the unemployed Veterans to 
show you that our model works. With $1 million in funding, we can place 
and retain at least 200 Veterans in permanent employment. We can then 
bring you 200 success stories on this day next year.

    As a Veteran and brother in arms with the men and women I've met at 
the America Works programs, I ask you today to make a real change for 
Veterans and their families nationwide. Our servicemen and women have 
served us; it is now our responsibility to serve them.

    Chairman Akaka, Ranking Member Burr, and distinguished members of 
the U.S. Senate Committee on Veterans' Affairs, thank you for your 
time.
                                 ______
                                 
Response to Post-Hearing Question Submitted by Hon. Daniel K. Akaka to 
 Retired Captain Peter ``Bull Frog'' Wikul, Director, America Works of 
                             New York, Inc.

    Question. In your testimony you stated that, to provide 
appropriate, effective, and timely services for Veterans from 
transition onwards, programs must provide direct, rapid attachment to 
the workforce. You also stated that programs that refer Veterans to Web 
sites where they can virtually apply to jobs for which they will not 
receive a call back are not adequate programs. With limited resources 
to provide personal services to all servicemembers and veterans in need 
and the increased use of the internet, can you suggest ways to improve 
on Web sites that offer employment assistance to make them more 
appropriate, effective, and timely?
    Response. While the internet has received increased usage and 
tremendous improvements over the past two decades, the internet is not 
a substitute for human services. The internet can match resumes to 
employers, but much more goes into the hiring process than just a 
resume. For instance, if an employer is seeking a young, energetic 
individual to help grow his/her business, the personality of potential 
employees may receive more attention than the skills and work 
experience on the resume itself. The key to finding long term, stable 
employment with true career ladders for an individual goes well beyond 
the work history documented on a resume.
    Moreover, dependence on an internet based job search is extremely 
limiting, and is an isolating experience. A benefit of the world of 
work is its role in our socialization, helping employees learn and 
improve their own work, as well as team based goal setting and 
achievement. Reliance on a wholly internet based employment program 
leaves the Veteran, who was used to doing everything in a team setting, 
to sit alone and go through the difficulties of job search in 
isolation. This leads to increased severity of PTSD and Depression, and 
provides greater barriers to employment in the long term.
    Additionally, employers struggle with internet based ``job 
matching'' systems, receiving hundreds, if not thousands, of resumes 
for a few open positions. Since they do not have time to review all the 
resumes, they are left with networking to find an employee, or choosing 
from a brief sampling of all the resumes. This process does not give a 
Veteran the ``leg up'' in the competition he/she deserves, and does not 
provide the best service possible to the employer.
    Instead of pouring all too limited funding into internet based 
programming, America Works provides ``performance based'' programs, 
which provide immediate assistant to both Veterans and employers, 
bringing the human element back to human services. Since its programs 
are performance based, funds are not wasted because America Works is 
not paid until a Veteran is employed and retained in the job for a 
given time. This programming is fast-paced, and proves to save 
thousands of dollars in funding due to the rapid attachment to work, 
leading to rapid reduction in the assistance needs of Veterans.
    For instance, for a Veteran to receive a partial disability payment 
is $4,200 every 6 months, his/her family to receive Food Stamps to 
supplement the lack of income is another $1,362 every 6 months, and for 
the Veteran to receive PTSD/Depression treatments for 6 months the cost 
is, on average, $4,221, for a total of $9,783. Additionally, if the 
Veteran seeks out Vocational Rehabilitation services from the VA, the 
cost for 6 months is another $7,774.76, and a Section 8 Voucher for 6 
months is valued at $25,559.14 in NYC. This is a total of $43,116.90, 
and the Veteran still does not have a job. On the other hand, America 
Works' programs cost between $5,000 and $7,500 per person depending on 
job retention and earnings levels, for a total cost to the government 
of $4,315 (subtracting taxes from taxable wages equaling $3,185 for 6 
months of $10/hr at 35 hours per week). This provides a cost savings of 
$38,801.90 per Veteran, and does not disrupt the current DVOP/LVER 
funding (which provides for an average per DVOP/LVER cost of 
$85,655.22).
    Needless to say, for a program that is of no risk to the government 
because payments are not given unless the work has already been done, 
it seems economically sensible especially considering the limited 
resources available, to rely on sensitive, effective, in-person based 
programming which saves funding both in the short and long term. Web 
sites can be improved to provide support to programs and employers, but 
they cannot replace the human services element of recruiting and 
hiring.

    Chairman Akaka. Thank you, Captain Wikul.
    Mr. Lawton-Belous, your testimony, please.

 STATEMENT OF JOSHUA LAWTON-BELOUS, IRAQ VETERAN AND BUSINESS 
                  ANALYST, ORACLE CORPORATION

    Mr. Lawton-Belous. Chairman Akaka, Honorable Members of 
this Committee, I appreciate being here before you to testify 
about transition services that are provided to America's men 
and women serving in uniform.
    These services are oftentimes overlooked when considering 
how to make a servicemember's transition from the military to 
civilian life successful, yet the services provided by programs 
like the Army Career Alumni Program, commonly referred to as 
ACAP, and Transition Assistance Program, commonly referred to 
as TAPs, are in some respects the most crucial elements to a 
servicemember's successful transition.
    As a former soldier who used programs like ACAP extensively 
during my recovery at Walter Reed Army Medical Center and as an 
interviewer for Oracle Corporation's Wounded Warrior program, I 
have had the unique experience to both understand the process 
of transitioning as servicemember and the important end result, 
the resume.
    While the Army Career Alumni Program at Walter Reed Army 
Medical Center and throughout the rest of the Army should be 
the first stop for all soldiers transitioning out of the Army, 
the ACAP office is all too often relegated to a check-the-box 
function because of command decisions which often inhibit or 
prohibit the ability of a soldier to obtain career separation 
counseling in a timely manner. This inability to obtain timely 
career separation counseling has a detrimental ripple effect. 
Due to the inability of soldiers to discuss their transitioning 
and career prospects with transition services, many soldiers 
are provided with limited career counseling and therefore 
assemble generic resumes. These generic resumes are competitive 
with neither those resumes that are assembled within the 
industry or by those at colleges and universities.
    Since these resumes are not competitive, soldiers do not 
obtain jobs that they believe themselves qualified for. This 
inability to obtain qualified employment reinforces a belief by 
those soldiers who remain in the military that transition 
services add no value to their transition and therefore are not 
worth fighting with their command to obtain.
    Due to the average age of those enlisting in the military, 
few of them understand the opportunities and culture of the 
civilian workforce. While these servicemembers have often 
earned roles and responsibilities that few of their civilian 
counterparts have obtained, many veterans do not realize, until 
they have obtained their first civilian job, the value of their 
experiences during their military careers.
    To these veterans, it was normal for a 21-year-old sergeant 
to counsel, supervise and establish goals for a team of five 
other soldiers. Without understanding the unique nature of 
their military careers, veterans do not translate the important 
aspects of their military careers into civilian language 
because they have not yet grasped what skills, characteristics, 
experiences, et cetera, that employers are looking for.
    Yet even if ACAP and TAPs were given the highest priority 
for servicemembers who are separating from the military and 
those separating servicemembers were able to translate their 
military experience into civilian language, many veterans would 
still be missing a crucial aspect of every resume, education.
    America's current labor market requires those seeking 
employment to have either a degree or industry-standard 
certifications, if not both. The reality for many enlisted 
members of the Armed Forces, specifically Marines and soldiers, 
is that upon leaving the military, they lack both the degree 
and industry-standard certifications. While veterans are 
rightly given preference in certain career fields, the lack of 
formal education often prevents them from obtaining employment 
even in the Federal Government.
    If we as a country are serious about wanting to decrease 
the unemployment situation among veterans, our government must 
take the following steps: One, fix the Post-9/11 GI Bill 
payment debacle. Two, strengthen the importance of formal 
education while still in the military. Three, enforce a 
military command structure that supports those servicemembers 
transitioning out of the military.
    Chairman Akaka, Honorable Members of this Committee, I am 
humbled by being here before you to testify about transition 
services that are provided to America's men and women serving 
in uniform. I thank you for listening, but more importantly, I 
thank you for your continual support of veterans and those 
still wearing the uniform of our country. Thank you.
    [The prepared statement of Mr. Lawton-Belous follows:]

 Prepared Statement of Joshua Lawton-Belous, Iraq Veteran and Business 
                      Analyst, Oracle Corporation

    Chairman Akaka, Ranking Member Burr, Honorable Members of the 
Committee, I appreciate being here before you to today testify about 
transition services that are provided to America's men and women 
serving in uniform. My name is Joshua Lawton-Belous and I am a recently 
medically discharged veteran who served two tours in Iraq. Currently, I 
am a business analyst at Oracle Corporation. I believe that the 
transition services that I am here to speak about today are often times 
overlooked when considering how to make a servicemember's transition 
from the military to civilian life successful. Yet the services 
provided by programs like the Army Career Alumni Program referred to 
commonly as ACAP and Transition Assistance Program commonly referred to 
as TAPs are in some respects the most crucial elements to a 
servicemember's successful transition. As a former soldier who used 
programs like ACAP extensively during my recovery at Walter Reed Army 
Medical Center, and as an interviewer for Oracle Corporation's Wounded 
Warrior Program, I have had the unique experience to both understand 
the process of transitioning a servicemember and the important end 
result--the resume.
    While the Army Career Alumni Program at Walter Reed Army Medical 
Center, and throughout the rest of the Army, should be the first stop 
for all soldiers transitioning out of the Army, the ACAP office is all 
too often relegated to a ``check the box'' function because of command 
decisions made at different levels, which inhibit or prohibit, the 
ability of a soldier to obtain career separation counseling in a timely 
manner. This inability to obtain timely career separation counseling 
has a detrimental ripple effect. Due to the inability of soldiers to 
discuss their transitioning and career prospects with transition 
services many soldiers are provided with limited career counseling and 
therefore assemble generic resumes. These generic resumes are 
competitive with neither those resumes that are assembled by those 
within the industry or by those at colleges and universities. Since 
these resumes are not competitive soldiers do not obtain jobs that they 
believe themselves qualified for. This inability to obtain qualified 
employment reinforces the belief by those soldiers who remain in the 
military, that transition services add no value to their transition and 
therefore are not worth fighting with their command to obtain.
    Due to the average age of those enlisting in the military, few of 
them understand the opportunities and culture of the civilian 
workforce. While these servicemembers have often earned roles and 
responsibilities that few of their civilian counterparts have obtained, 
many veterans do not realize until they have obtained their first 
civilian job, the value of their experiences during their military 
careers. To these veterans it was normal for a 21-year-old Sergeant to 
counsel, supervise, and establish goals for a team of 5 other soldiers. 
Without understanding the unique nature of their military careers, 
veterans do not translate the important aspects of their military 
careers into civilian language, because they have not yet grasped what 
skills, characteristics, experiences, etc. that employers are looking 
for.
    Yet even if ACAP and TAPs were given the highest priority for 
servicemembers who are separating from the military, and those 
separating servicemembers were able to translate their military 
experiences into civilian language, many veterans would still be 
missing a crucial aspect of every resume-Education. America's current 
labor market requires those seeking employment to have either a degree 
or industry standard certifications, if not both. The reality for many 
enlisted members of the Armed Forces, specifically Marines and 
Soldiers, is that upon leaving the military they lack both a degree and 
industry standard certifications. While veterans are rightly given 
preference in certain career fields, their lack of formal education 
often prevents them from obtaining employment even in the Federal 
Government.
    If we as a country are serious about wanting to decrease the 
unemployment situation among veterans, our government must take the 
following steps: (1) Fix the Post-9/11 GI Bill payment debacle; (2) 
Strengthen the importance of formal education while still in the 
military; and (3) Enforce a military command structure that supports 
those servicemembers transitioning out of the military.

    Chairman Akaka, Ranking Member Burr, Honorable Members of the 
Committee, I am humbled by being here before you to testify about 
transition services that are provided to America's men and women 
serving in uniform. I thank you for listening, but more importantly I 
thank you for your continual support of veterans and those still 
wearing the uniform of our country. I look forward to answering any 
questions you may have.

    Chairman Akaka. Thank you very much, Mr. Lawton-Belous.
    And now we will have the testimony of Dexter Daniel.

                  STATEMENT OF DEXTER DANIEL, 
                   U.S. ARMY VIETNAM VETERAN

    Mr. Daniel. Mr. Chairman, very good morning, Senate 
Committee Members, I thank you very much for allowing me to 
share my testimony with you this morning.
    My name is Dexter Daniel, and I am a U.S. Army veteran. I 
was honorably discharged in October 1976 after a 5-year tour in 
Germany. My primary MOS was 73C20, finance payroll specialist. 
And upon my release, I looked forward to returning home even 
though I knew in my heart I had multiple apprehensions. On the 
outer appearance, I looked great to immediate family members 
who hadn't seen me for quite some time. But even though I knew 
that my family members would be glad to see me, there was a war 
raging inside of me.
    Throughout my entire tenured time in Germany, I actively 
became involved with alcohol and drugs during social times. 
Initially, I never addressed--I want to reemphasize, I never 
addressed any of my addiction to drugs or my behavioral 
problems that I was experiencing.
    When I did return home, because of lack of knowledge of 
addictive behavior, I really began getting into a lot of 
difficult-type situations. I really had no problem gaining 
employment, and I had no real difficulty in the aspect of 
convincing people that I would probably be the most qualified 
person to work for them. However, keeping a job and being 
responsible became my real problems, and eventually, it ended 
up being my demise.
    As my addiction progressed, my self-esteem and self-worth 
plummeted, and I eventually became alienated, homeless, and 
destitute. Throughout these times, suicidal thoughts visited me 
far too often, and I was engulfed to the core of my being in 
anger, resentment, and fear. I had a culmination of 31 years 
active addiction, 26 years of incarceration, 17 years of 
homelessness, 18 years of being unemployed along with family 
alienation and society withdrawal. Those were the consequences 
of my choices, my ignorance, and my rebellion.
    In 1999 while facing multiple drug-related criminal 
charges, I completely surrendered to the reality of my 
condition and my circumstances. I needed help, and I appealed 
to the circuit court judge that would preside over my case. If 
I was convicted--and I absolutely knew in my heart that I was 
guilty of all charges--my sentence would be 120 years, which 
would be life.
    By the divine grace and mercy of God, through fervent 
prayer, and the intervention of drug court in the State of 
Maryland and inclusion and acceptance into the Maryland Center 
for Veterans Education and Training center, I was given an 
alternative to prison and renewed opportunity for a restored 
life.
    Regeneration into society would take time, so I became 
fully engaged in the structure of the program, which included 
the following: foundational concepts, spiritual steps, 12-step 
program, and applications of recovery. Mental and physical 
stabilization was available with a reconnection with the VA.
    Job readiness, training, and placement assistance also 
became available as I began to transition on. Financial 
management, I felt that that was extremely important because as 
a financial payroll specialist, I really never had a problem 
getting money. The problem was managing it and knowing exactly 
what to do.
    Housing referral assistance also became available. Family 
reconciliation, which is something that is very, very important 
to me because I alienated my family for so long, which I had a 
daughter and she never really knew her dad. And finally, 
aftercare--primary and general aftercare--is available to me 
even up to this day.
    So, today I humbly and I honestly confess that my heart is 
filled with hope, my life is filled with love, and my soul has 
a focus and renewed strength. I have remained drug free and 
incarceration free since 1999. I have completed all the 
requirements stipulated by the circuit courts of Maryland, and 
I remain an alumnus of the Maryland Center for Veterans 
Education and Training center.
    In addition, I am also so blessed--and I mean that 
sincerely--very, very blessed to be employed as a senior event 
service supervisor within the hospitality industry as was 
aforementioned, the Marriott. They gave me a tremendous 
opportunity. They knew of my background, and when I applied 
with them, I primarily wanted them to see and understand that 
the person that was before them today was not the person that I 
used to be. And I wanted a full consideration of who I am today 
with the hope of who I would like to become tomorrow if they 
gave me an opportunity.
    Again, through prayer, that opportunity came my way, and I 
continue to give back in several areas. I am allowed to be able 
to correspond with others that are still in various programs as 
well as the Maryland Center for Veterans Education and Training 
to give them opportunities as well; to show them that it is 
possible for a veteran to be able to heal. And I have been able 
to--or been empowered to accomplish many numerous personal, 
professional, and social goals.
    Finally, it is my hope that current and future veterans 
seize their opportunity to integrate into society as 
acceptable, responsible, and productive citizens. I am 
eternally grateful to God for touching the hearts of those who 
were and still are willing to support veterans with compassion, 
constructive dialog, and goodwill. I also believe that the 
economy and the integrity of the United States of America can 
and will recover through dedication, teamwork, and personalized 
effort. Thank you, and God bless you.
    [The prepared statement of Mr. Daniel follows:]
   Prepared Statement of Dexter H. Daniel, U.S. Army Vietnam Veteran
    My name is Dexter Daniel and I am a U.S. Army veteran. I was 
honorably discharged in October 1976 after a 5 year tour of duty in 
West Germany. My primary MOS was 73C20, finance payroll specialist. 
Upon my release, I looked forward to returning home even though I knew 
in my heart I had multiple apprehensions. On the outer appearance, I 
looked great to immediate family members who had not seen me for some 
time and even though I had left the military, a ``war'' was still 
raging inside of me. Throughout my tenure in Germany, I actively became 
involved with alcohol and drugs during social times. Initially, I never 
addressed my addiction when I returned home due to a lack of knowledge 
regarding addictive behavior. When applying for employment, I had no 
real difficulty getting a job; however, keeping a job and being 
responsible eventually lead to my demise. As my addiction progressed, 
my self esteem and sense of worth plummeted and I eventually became 
alienated, homeless and destitute. Throughout these times, suicidal 
thoughts visited me far too often and I was engulfed at the core of my 
being with anger, resentment and fear. A culmination of 26 years of 
incarceration, 17 years of homelessness and 18 years being unemployed 
along with family alienation and society withdrawal were the 
consequences of my choices, ignorance and rebellion.
    In 1999, while facing multiple drug related criminal charges, I 
completely surrendered to the reality of my condition and 
circumstances. I needed help and appealed to the Circuit Court Judge 
that would preside over my case. If convicted, my sentence would be 120 
yrs. Life!
    By the divine grace and mercy of God and through fervent prayer and 
the intervention of Drug Court and inclusion of acceptance into the 
Maryland Center for Veterans Education and Training Center, I was given 
an alternative to prison and a renewed opportunity to restore my life. 
Reintegration into society would take time so I became fully engaged in 
the Structure of the program which included the following:

    1. Foundational concepts, steps and applications of Recovery
    2. Mental and Physical stabilization
    3. Educational Assistance
    4. Job readiness, training and placement assistance
    5. Financial Management
    6. Housing referral Assistance
    7. Family Reconciliation Assistance
    8. Primary and General Aftercare

    Today, I humbly and honestly confess that my heart is filled with 
hope, my life is filled with love and my soul has a focused renewed 
strength. I have remained ``drug free'' since 1999, completed all 
requirements stipulated by the Circuit Courts and remain an Alumnus of 
the Maryland Center for Veterans Education and Training Center. In 
addition, I'm so blessed to be employed as a Sr. Event Services 
Supervisor within the Hospitality Industry since March 2001 with a 
Fortune 500 global Hotel Corporation. I have been empowered and have 
accomplished numerous renewed personal, professional and social goals.
    Finally, it is my sincere hope that current and future Veterans 
seize their opportunity to integrate into society as acceptable, 
responsible and productive citizens. I am eternally grateful to God for 
touching the hearts of those who were and still are willing to support 
Veterans with compassion, constructive dialog and goodwill. I also 
believe that the economy and integrity of the United States of America 
can and will ``recover'' through Dedication, Teamwork and Personalized 
effort.

    Chairman Akaka. Thank you very much, Mr. Daniel.
    Now we will hear from Ms. Tymes.

     STATEMENT OF HELEN TYMES, CAREER SPECIALIST, NATIONAL 
                ORGANIZATION ON DISABILITY (NOD)

    Ms. Tymes. Thank you, Mr. Chairman and Members of the 
Committee.
    My name is Helen Tymes, and I am a career specialist with 
the National Organization on Disabilities in Fayetteville, NC. 
My partner Dwayne D. Beason, Sr. and I staff the North Carolina 
office of the NOD Army Wounded Warrior Career Demonstration 
Program. The two of us are both veterans. Mr. Beason served 30 
years in the U.S. Army, and I served 21. I was pleased to 
accept this invitation today to testify.
    NOD is a 28-year-old non-profit organization that has long 
worked to improve the quality-of-life with disabilities by 
advocating their fullest inclusions in all aspects of life. The 
NOD board, led by the former Secretary of Homeland Security, 
Tom Ridge, decided that for the next 5 years, NOD will devote 
the bulk of our resources to promoting economic self-
sufficiency among America's 33 million working-age people with 
disabilities.
    Within this focus, we are helping the most severely injured 
veterans returning home from Iraq and Afghanistan to become 
productive contributing members of society. We are doing this 
by helping them enter or resume a career and/or education upon 
their return home. NOD is proud to assist by providing 
proactive, high-touch services individualized to one-quarter of 
the AW2 veteran population in North Carolina, and at this time, 
it is at 270.
    Our AW2 careers demonstration is an entirely privately-
funded initiative conducted by NOD under a memorandum of 
understanding with the U.S. Army and its Army Wounded Warrior 
program, also known as AW2. Today, NOD career specialists 
ensure that career services and other assistance is provided to 
over 180 soldiers, veterans, and their families in the Dallas 
Metroplex, and the States of Colorado and North Carolina. We 
link soldiers, veterans and family members to existing services 
in various agencies within the community.
    Many observers still expect veterans to live out their 
lives independently. However, we at AW2 and at NOD strongly 
believe that most of these young men and women can become 
independent contributing members of society. This is the Army's 
admirable vision for its AW2 soldiers and veterans. Our mission 
is to help veterans return to school and to some form of work.
    The Nation placed these young men and women in harm's way, 
and now we have an obligation to support their successful 
transition into the community and to learn via this program 
what works in the transition process from the military to the 
civilian sector.
    I would like to give just one small example of some of the 
situations that we are serving as far as our veterans today 
that have served in the global war on terror.
    With our assistance, we are serving a veteran right now who 
has been given a 70 percent disability by the Army and 100 
percent disability with the VA. During the initial interview 
that we do, we were able to discover that the veteran was not 
being paid his full retirement benefits and immediately we had 
to go to his advocate to let them know.
    It became apparent during this visit that the veteran was 
suffering from some degree of PTSD--which he was diagnosed with 
PTSD and TBI--in which the veteran could not remember some of 
the basic things about himself. He had lost his DD-2 form, his 
retired military identification form, and he could not recall 
his Army Knowledge Online password, which he needed that to 
access his MyPay account. The veteran was also unable to access 
other services that were available to him.
    As career specialists, we were able to individually take 
this veteran to the places that he needed to go. We escorted 
him to Seymour Johnson Air Force Base to get his DD-2 form and 
his retired military ID. The career specialist also assisted 
the veteran with obtaining a new password for his MyPay and 
assisted with getting his pay straightened out.
    The NOD career specialists program provides immediate real-
time assistance and problem resolution for veterans and their 
family members. We get the name of the veteran and family 
referred to us from the AW2 advocate--which North Carolina is 
staffed with eight--and the career specialist. We make the 
initial contact.
    We work closely with the veterans. We perform an assessment 
of the veteran's needs and help develop education and training 
goals associated with a specific career plan. We are mobile, 
often visiting the veteran at his home and traveling to various 
local, State and Federal agencies to make face-to-face contact 
instead of merely waiting for agencies to return phone calls.
    As you may know, certain veterans' conditions such as PTSD 
and/or TBI can cause severe stress, frustration, and anger. As 
the career specialist, we often relieve such anxiety by 
accompanying the veteran to various appointments and helping 
that veteran get the information that they need from the 
specific agency.
    This personalized approach and commitment typifies the 
nature of the NOD model. To date, approximately one-half of the 
cases managed by the NOD career specialists have been placed in 
education, training, or employment. NOD career specialists are 
privately funded by organizations such as the Kessler 
Foundation and the Cumberland Community Foundation. This 
funding also allows us to provide immediate financial 
assistance to veterans for textbooks, educational supplies, 
utilities, moving expenditures and even transportation needs. 
We also collect data on our activities and the progress of the 
180 veterans that we serve. We are also assembling lessons 
learned and best practices associated with our model.
    The model for the NOD AW2 careers program is a proactive 
approach. We provide continuous and prolonged support to the 
veterans that we do assist. We develop an individualized career 
plan and administer interest inventories. We assist veterans 
with making realistic career choices and goals. We assist 
veterans to help them stay on track with goals, and we 
continually follow up and reassess. Our proactive and prolonged 
relationship allows us to gain the trust of our veterans, and 
we believe it accounts for the high positive results that we 
have had thus far.
    In closing I would like to state that we strongly believe 
in our proactive and prolonged approach to serve our veterans. 
Our model ensures that we provide high-touch, individualized, 
personalized services to our veterans. This allows and helps 
with successful outcomes.
    NOD asks that the Committee support funding for the 
expansion of our collaborative program. We would like to see 
our collaboration effort with the Army expanded to many more 
locations and to also serve other military services. NOD hopes 
to continue to collaborate with the Veterans' Affairs Committee 
regarding program results and broader application of the 
model's best practices.
    I thank you for this opportunity today.
    [The prepared statement of Ms. Tymes follows:]
    Prepared Statement of Helen Tymes, Career Specialist, National 
                    Organization on Disability (NOD)

    Mr. Chairman, Members of the Committee: I am Helen Tymes, Career 
Specialist with the National Organization on Disability. My partner, 
Dwayne Beason, and I staff the North Carolina office of the NOD's Army 
Wounded Warrior Career Demonstration Program, or AW2 Careers. I was 
pleased to accept your invitation to testify before your hearing on 
``Easing the Burdens Through Employment'' in relation to severely 
wounded veterans returning to civilian life from the wars in Iraq and 
Afghanistan.
    As one who is laboring ``on the ground'' to help veterans and their 
families to adjust effectively to their often very difficult 
circumstances, I am very heartened that this Committee is devoting time 
and energy to examining what we and others are doing to make good 
things happen on these fronts.

                               ABOUT NOD

    NOD is a 28-year old national nonprofit organization that has long 
worked to improve the quality of life of people with disabilities by 
advocating their fullest inclusion in all aspects of life. We are one 
of only three so-called ``cross-disability'' organizations working to 
improve the quality of life for all of America's 54 million people with 
disabilities.
    Over our nearly 20-year history, we've worked with scores of 
communities across the country to help them improve the quality of life 
for their citizens with disabilities and honor those that do it well. 
Our World Committee on Disabilities honors countries that do the same 
with an award presented by the Secretary General of the United Nations.
    We're perhaps best known for our Harris polls, which have tracked 
various quality of life indicators through statistically valid sampling 
of 1,000 people with disabilities. For more than 20 years, the Harris 
Interactive firm's researchers have tracked everything from access to 
health care, to transportation, degree of optimism about the future, 
social interactions with friends and community, religious 
participation, and even voting.
    Needless to say, the gaps in these quality of life indicators 
between people with and without disabilities remain very wide, 
notwithstanding gains we've made through the ADA and other policy 
reforms in the last ten to twenty years. Among these indicators, it 
should be no surprise that economic self-sufficiency displays the 
greatest gap. People with disabilities suffer a poverty rate that is 
three times the national average and our Harris polls have reported a 
67% rate of unemployment, a number that's remained virtually unchanged 
since the end of WW II.
    For this reason, the NOD board, led by our chairman, former 
Secretary of Homeland Security Tom Ridge, has decided that for the next 
five years NOD will devote the bulk of our resources to promoting 
economic self sufficiency among America's 33 million working-age people 
with disabilities. Within this focus, we are working on helping the 
most severely injured veterans returning from Iraq and Afghanistan 
become productive, contributing members of their communities by 
entering or resuming careers upon their transition home.

                   THE NOD AW2 CAREERS DEMONSTRATION

    Today, I want mainly to share with you what we are learning from 
the early phases of AW2 Careers. While this demonstration is focusing 
on helping the most severely injured soldiers in the Army's AW2 Program 
access careers upon transitioning home, the model we are piloting has 
applicability to a broad range of services beyond those devoted to 
increasing economic self sufficiency. It is a model that deals not only 
with veterans but also with their families. We strongly believe that 
the population of severely injured servicemembers, like the rest of the 
country's people with disabilities, faces a very complex recovery 
process that affects a family over a prolonged period and requires an 
array of services and supports for it to gain a semblance of a good 
quality of life.
    Our AW2 Careers Demonstration is an entirely privately funded\1\ 
initiative conducted by NOD under a Memorandum of Understanding with 
the U.S. Army and its Army Wounded Warrior Program (AW2). Today, NOD 
Career Specialists ensure that career services and other assistance are 
provided to 188 soldiers, veterans, and their families\2\ (soon to top 
200) in the Dallas Metroplex and the states of Colorado and North 
Carolina. We link soldiers/veterans and family members to existing 
career services in the community--or provide them directly ourselves 
where such services are inadequate.
---------------------------------------------------------------------------
    \1\ NOD's AW2 Careers Demonstration is funded by 17 private 
foundations and two corporate donors. It is a 4.5-year, $4.8 million 
project.
    \2\ We will henceforth mainly use ``veterans'' to represent all of 
those served by AW2 and AW2 Careers--Regular Army, Reserve, or National 
Guard soldiers who mainly veterans separated from active duty, though 
in some cases still on active duty or still in the Reserves or National 
Guard--and their family members.
---------------------------------------------------------------------------
    I want to proceed directly to address the Subcommittee's interest 
in our on-the-ground work with returning veterans and their families. 
But:

    <bullet> First, let me stress that to understand fully what I will 
present it is important to know something about the nature of both the 
Army's Wounded Warrior Program and of the NOD AW2 Careers 
Demonstration. Brief descriptions of both (and of NOD) are in 
Attachment 1 and I urge those not familiar with these programs to read 
Attachment I before proceeding here.
    <bullet> Second, Attachment 2 is a one-page summary of AW2 Careers 
outcomes and progress to date, drawn from our most recent evaluation 
records.
    <bullet> Finally, Attachment 3 is perhaps the most important 
document we would like to present. It describes how the service model 
of AW2--the Army's own program--and of AW2 Careers differs in essential 
ways from the service models of others trying to serve the most 
severely wounded soldiers, veterans, and their families. We are 
convinced that it is this pro-active, ``high touch'' service model that 
makes the difference in progress for these severely wounded 
populations--and that the comprehensive independent evaluation we have 
funded will confirm that.

    Here, let us stress that most veterans separated from active duty 
for medical reasons are given travel to their homes and disappear from 
the DOD radar screen. They are left to find their own ways to the VA, 
the Labor Department, and the other Federal, state, and local 
government and nonprofit agencies with benefits and services to which 
they are entitled or they need. It is different for severely injured 
veterans eligible for AW2. They too are separated and given travel to 
``home.'' But also, AW2 puts their name and contact information on the 
caseloads of one of AW2's 150 Advocates who covers that veteran's 
hometown. That Advocate is charged with reaching out pro-actively to 
find and engage that veteran and his/her family and sticking with him/
her to ensure that s/he gets the benefits/services to which s/he is 
entitled or needs. When that veteran is ready for career activity, the 
Advocate passes the veteran's name to the NOD Career Specialist for 
that area, who similarly pro-actively reaches out to the veteran and 
establishes the same kind of supportive relationship ``for as long as 
it takes.'' Neither AW2 Advocates nor NOD Career Specialists wait for a 
knock on the door or a phone call or an email from a veteran in need. 
We find and engage them.
    Now, let me begin by noting that many of the most severely injured 
OIF/OEF veterans would have died in previous wars. Battlefield 
medicine, however, has advanced to the point that their lives endure 
but are frequently deeply impaired in both the physical and mental 
realms. Many observers still expect many of these veterans to live out 
lives in dependency, but we at AW2 and NOD strongly believe that most 
of these young men and women can become ``self-sufficient, contributing 
members of their communities'' (the Army's admirable vision for its AW2 
soldiers/veterans) by returning to school and some form of work. We, 
the Nation that placed these young men and women in harm's way, need to 
see this situation as an opportunity to learn ``what works'' to do 
that.
    This, indeed, is the purpose animating AW2 and NOD's AW2 Careers. 
It is important to note, however, that many of the challenges facing 
these veterans will not be surmounted quickly or easily. The effort 
must be long term in nature.
    Let me begin with a summary of our statistics. We are only 11 
months old, having opened our shop in late December 2008. We now have a 
caseload of 67 soldiers/veterans (mainly veterans) and are heading 
toward 100 in a few weeks. Of this 67, we have helped 28 to move into 
education, training, or work of some kind in less than a year. That 
number will, of course, increase as we move into our second and third 
years.

        HERE ARE TWO STORIES ABOUT VETERANS AND THEIR FAMILIES.

    <bullet> Veteran 1: The veteran called me to state he received a 
letter from the VA's Vocational Rehabilitation folks stating he was 
denied benefits of VR & E. I asked the veteran if the letter stated 
`why' and he replied no. The veteran was immediately informed by me 
that I would follow-up on the situation and get back to him within 24-
48 hrs. I contacted the VA/Winston-Salem to find out how it is that a 
Wounded Warrior with Severe PTSD and a 70% VA rated disability could be 
denied Vocational Rehabilitation. The VA representative stated, ``That 
should have never happened. Unfortunately, we do have Case Managers 
that are handling a multitude of cases which cause many veterans to 
either be denied services or completely fall through the cracks.'' I 
gave the contact the veteran's information, and she researched the case 
to find out if the decision of `no' was incorrect. The VA contact gave 
me the new VA Case Manager's name with a consent form to allow me to 
discuss the veteran's case. I arranged a teleconference with the 
veteran and his case manager, and an initial face-to-face appointment 
was then scheduled. I transported the veteran to Winston-Salem and 
attended his initial appointment with him. The Case Manager approved 
him to receive an Extended Evaluation and Plan, education funding and a 
voice recorder to record the Instructor's session and help the veteran 
recall what was said and took place in the classroom. Veteran will take 
a placement test at Fayetteville Technical Community College and enter 
the Computer Programming Curriculum in January 2010.
    <bullet> Veteran 2: A veteran received a disability rating by the 
Army of 70% with other physical injuries sustained in the Global War on 
Terrorism. The veteran received a 100% disability rating from the VA. 
During the initial interview with the veteran, the CS discovered that 
the veteran was not being paid his full retirement benefits and 
immediately informed the Army's Advocate. It became apparent during the 
visit that the veteran was suffering from some degree of PTSD. He could 
not remember some basic things about himself and was unable to recall 
where his military documents were located. The veteran lost his DD Form 
2, Retired Military Identification card, and could not account for his 
Army Knowledge On-line password to access his e-mail account. Also, the 
veteran was unable to access his military MyPay account. During the 
intake, the CS discovered that he was pending several charges of 
violating laws and had to attend court. CS transported the veteran to 
Seymour Johnson AFB in Goldsboro to obtain a new DD Form 2, Retired 
Military ID. CS also assisted veteran with obtaining a new ID and 
Password to access his MyPay account to submit the process and 
verification for a pay correction. We continue to work with him.

    In these cases you can see the role we play in action. Let me 
highlight some of the things we do as in these cases.

    <bullet> NOD's AW2 Careers program provides immediate, real time, 
pro-active assistance and problem resolution for veterans and their 
family members. We do not sit behind a desk and wait for other agencies 
to assist. We are mobile and have the latitude to go to agencies and 
make face-to-face contact versus waiting for an agency to hopefully 
return a phone call. We assist the veteran with what needs to be asked 
or ask the hard questions ourselves.
    <bullet> Due to the nature of our private funding, we have the 
ability to make immediate financial assistance for tuition, textbooks, 
educational supplies and needs, utilities, moving expenditures and 
transportation needs.
    <bullet> NOD's AW2 Careers develops an Individualized Career Plan, 
administers Interest Inventories and assists veterans with making 
realistic career choices and goals. We assist veterans with staying on 
track with goals and continually follow--up and re-assess. We are able 
to obtain and maintain trust from the veterans we serve by establishing 
an initial, trustworthy relationship and by showing that we have 
genuine concern for their needs and goals.

    When I talk with my colleagues at our other sites in Colorado and 
Texas and with our leaders in the New York headquarters of NOD, we can 
step back and stress some early lessons emerging from our work to date.

    1. A Fundamental Mismatch: Seriously Injured Veterans and Reactive 
Agencies: Sometimes by design and more often from funding limitations, 
many of the government, and, indeed, private programs in place to help 
veterans returning from Iraq and Afghanistan are constrained to a 
reactive service model, only responding when a veteran seeks services 
and thus placing the burden on veterans to find and approach the 
agencies. But we find that the most seriously injured veterans with 
whom we work are not really able to effectively access services from 
reactive agencies.
    Many veterans, especially the most severely injured who often also 
suffer from cognitive disabilities, do not know the benefits to which 
they are entitled, which agencies offer them, and how to approach 
them.\3\ Further, many are isolated, geographically, socially, and/or 
psychologically. Their needs call for an entirely different service 
model--in our view along the lines of what we are testing in AW2 
Careers. That model is to actively reach out to the veterans and ensure 
their needs are being met. The terms NOD uses to describe our service 
model are ``pro-active, intensive, and prolonged, high touch case 
management relationships'' with the veterans being served. It is 
important to note that few, if any, other government agencies and or 
private veterans' service organizations can employ the service model 
adopted by AW2 and AW2 Careers.
---------------------------------------------------------------------------
    \3\ The Army Career and Alumni Program (ACAP) briefing syllabi for 
soldiers departing active duty are comprehensive and thorough, but many 
veterans report that they didn't get these briefings or understand them 
or remember them. Some may have been diverted by their injuries--or 
simply young enough to not pay attention to seemingly remote matters 
until they become very proximate, back home.
---------------------------------------------------------------------------
    When a soldier is going through the Army Board process leading to 
medical discharge--or shortly thereafter--that soldier, if s/he meets 
AW2 admission criteria regarding severity of injury, is, in effect, 
automatically enrolled as a ``member'' of AW2. When the new veteran is 
medically separated and heads for home, his/her name is added to a 
caseload list of an Army Advocate (and later, where applicable, an NOD 
Career Specialist) serving the geographical region that soldier calls 
home. That Advocate and Career Specialist are charged with reaching out 
and finding that soldier/veteran; establishing a close, supportive 
relationship; and ensuring s/he gets the benefits and services due her/
him.
    In NOD's case, we require Career Specialists to contact ``their'' 
veterans at least once a month, usually electronically (but including 
face-to-face meetings early on and, later, once every six months, often 
by getting in their cars and going to see the veteran at home, where we 
get a much fuller picture of his/her situation). We do not sit in our 
offices and wait for a veteran to knock on our door.
    Further, we have early indicators and even some evidence that this 
service model is much better received by the veterans. Anecdotally, it 
is clear that the close NOD Career Specialist outreach relationships 
have lifted some veterans out of their isolation and immobility and 
started them re-engaging in both their lives and careers. These 
relationships have also resulted in spouses and children moving forward 
on career paths. This is reflected in early survey results, including 
the below veterans' ratings of satisfaction with ``how helpful'' the 
services to date of various agencies have been:


------------------------------------------------------------------------
                                   A Lot     Some   A Little  Not at All
------------------------------------------------------------------------
NOD Career Specialist...........      61%      30%       7%          2%
AW2 Advocate....................      56%      29%      14%          2%
One Stop Center.................      29%      29%      29%         14%
Voc Rehab & Empt................      28%      48%      20%          4%
ACAP............................      16%      43%      39%         11%
Other Agencies..................       0%      67%      33%          0%
------------------------------------------------------------------------

    Finally, we acknowledge that the AW2/AW2 Careers service model is 
more expensive than office-based, reactive models. To this we respond 
that our final evaluation is likely to confirm our early operating 
judgment that this model works more effectively, certainly for this 
population of most severely wounded veterans. Moreover, a broadly based 
cost-benefit analysis should weigh direct program costs against the 
benefits of reduced dependency costs, increased tax revenues from 
veterans' earnings, reduced costs for shelters and imprisonment, more 
successful marriages and parenting, and the restoration of self-
confidence from a veteran's again being an ``self sufficient, 
contributing member of his/her community,'' which is the Army's 
admirable vision for this population.
    2. The Need to Deal with both the Veteran and the Family: The 
process of recovering from injury and coming to terms with disability 
is a complex process that is all consuming not only for the veteran but 
the entire family. Retired parents may have to become caregivers to a 
veteran. Spouses whose job it was to take care of the children and 
household find them-selves suddenly in the role of caregivers to the 
veteran and/or even family breadwinners. Children may have to come to 
grips with a parent they no longer recognize. Investing in support for 
spouses, parents of veterans, and veterans' children who are drawn into 
this process is, in our view, a necessary and cost effective investment 
that the VA must consider as it administers ancillary benefits. And 
these benefits must be as flexible as are many of the benefits 
available through VR and E.
    3. Unaddressed Mental Health Needs: More than half the AW2 
population, including those in AW2 Careers, suffers from primary 
diagnoses of PTSD/TBI, with many having both, often also with physical 
injuries. But the behavioral/mental health concerns do not stop there. 
Many veterans suffer depression or other mental health issues 
(including violent or suicidal ideations) that require appropriate 
mental health services (especially including marital/family 
counseling). But, we find that these needs are largely unaddressed and 
can impede career progress by contributing to veterans' dropping out of 
education or training or losing a job. It is not a criticism of the VA 
to say that despite its efforts to expand such services, it simply 
isn't able to adequately service these needs. Sometimes the veteran 
denies these needs; or finds the local VA has no or limited mental 
health services or they are not close enough; or does not like what 
they perceive as the VA's reliance on problematic medications (not 
uncommon in other populations using psychotropic medications), with 
only limited therapy. We feel that the VA should supplement its direct 
mental health services by mobilizing and applying mental health 
services from other local agencies that are anxious to be helpful to 
veterans but need to be recruited, supported, and trained to do so.
    4. Criminal Charges: We have encountered several situations where 
some behaviors associated with PTSD/TBI have resulted in veterans 
facing criminal charges (e.g., erratic driving, substance abuse, 
violence, including family abuse, etc.). It is hard to help a veteran 
stay on a career path when s/he is in court or jail. We have examples 
of our Career Specialists intervening with police, prosecutors, or the 
courts to request that notice be taken of the soldier/veteran's 
disability and considered as a mitigating factor in charges or 
sentence. This has sometimes resulted in remanding the soldier/veteran 
to treatment rather than incarceration. There is need for all agencies 
serving this population to intervene in such circumstances, bringing 
these factors to the consideration of such local authorities. (Indeed, 
one of our Career Specialists has led the effort in his part of his 
state to create a ``Veterans Court'' to which criminal charges against 
soldiers or veterans are referred for disposition taking such factors 
into account.)
    5. Personal/Family Financial Management: Young veterans often have 
little or no experience or knowledge of properly managing family 
finances, despite ACAP and other Army training thereon. Our Career 
Specialists frequently find veterans in dire financial straits 
requiring emergency advice, training, and assistance. There is clearly 
a need for continuing personal/family financial management training and 
guidance.
    6. Peer Support Mechanisms: The fact that so many of our veterans/
families are isolated geographically, socially, and psychologically has 
led our Career Specialists to try various peer meetings and other peer 
supports, often with heartening results. Our sense is that this needs 
broader application.
    7. Inadequate Education and Job Skills: We have not been surprised 
to find that many of our veterans lack the education credentials and 
job skills needed to succeed in the labor markets of today and the 
foreseeable future. Our response is to urge veterans to use the 
education and training benefits available to them to upgrade their 
credentials on either or both fronts. Many have responded positively. 
But others working with these veterans need to adopt the same emphasis.
    8. The Need for Flexible Work Support Funds: The soldiers, 
veterans, and family members we serve frequently have very limited 
incomes. In addition, they face the need to spend modest amounts of 
money on things that can advance their career prospects--or impede them 
if such expenditures are not possible. These needs include things like 
tuition payments where Federal educational benefits are delayed and the 
veteran cannot afford payments up front. Or, books, work clothes, 
computer repairs or software, travel expenses for a job fair or 
interview, license or other work related fees, and more. To meet such 
needs, we provide small grants from our work support funds that can 
facilitate career progress.

                               NEXT STEPS

    As indicated above, our sense is that our model of services is 
highly promising and that its early indicators confirm this. But, we 
think we should take this developmental and testing phase further to 
generate firmer results, outcomes, and lessons.
    Our present set-up of three sites over three operating years was 
devised three or so years ago, early in the then understandably chaotic 
period of our Nation becoming aware of the challenge and opportunity of 
responding to these severely wounded returning veterans--and of the 
initially chaotic and understaffed period of establishing the AW2 
program. The private sector then stepped forward, with an impressive, 
welcome, but still limited support of our demonstration program.
    Our sense, as experienced operators of demonstration projects, is 
that the present pilot project, while important as a source of early 
lessons, is still nonetheless too limited. Three sites are too few; 
three years are too few. Far better in terms of both serving more 
people but more important in generating more reliable data to support 
lessons learned, would be more sites for more time with more staff. We 
feel that expanding our present three sites to twelve and to five years 
instead of three and to two Career Specialists in all of the sites 
would yield important dividends in lessons learned and confirmed. 
Moreover, expanding the number of sites would yield similar dividends. 
Hence, we argue for up to nine additional sites, or a dozen in all.
    Moreover, additional sites would allow clusters of sites to focus 
on potentially important themes. For instance, we would envision a 
cluster including concentrated mental health services; another 
including concerted advice to employers on both ways to accommodate the 
needs of disabled veterans in order to be productive and ways to 
``sculpt'' or structure job requirements to the same end; yet others 
emphasize peer group supports. Then, too, some or all of the additional 
sites should provide career services to the severely disabled veterans 
from all DOD uniformed services. To these ends, we seek Congressional 
and agency support as well as the continuation of private funding.
    On broader fronts, we would urge that the Committee support:

    <bullet> Expansion of the AW2 program and the inclusion by it of 
severely wounded veterans of the other DOD uniformed services. This 
model of service is not only applicable to ``Army Green'' but also to 
similarly injured Marines, Sailors, and Air Force people; and these 
services should ``try out'' this approach by partaking of our 
demonstration project.
    <bullet> That the VA consider a demonstration project along the 
lines of AW2 Careers. This would mean that the VA would establish a 
two-tiered structure, at least for exploratory, demonstration project 
purposes, with a ``high touch'' pro-active program like AW2 Careers for 
those so eligible, with revamped ``regular'' services for those not so 
severely disabled.

    Thank you for your invitation and attention.
                                 ______
                                 
                              Attachments

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Akaka. Thank you very much, Ms. Tymes.
    It seems that one of the themes running throughout all of 
your testimony this morning is mentoring, coaching and hands-on 
approach to providing assistance. Let me ask each of you to 
rate this aspect of any program that might be developed in 
terms of its value and as a factor for success.
    Ms. Tymes. I will make a statement on that.
    Chairman Akaka. Ms. Tymes?
    Ms. Tymes. Yes. Sir, as far as the effectiveness of our 
program, it is right now 90 percent. As far as the veterans 
that we serve and the opportunities that we have assisted the 
veterans to get, we give individualized services to veterans. 
As far as the transition from being in the military, as has 
been stated earlier, into the civilian sector, many of those 
skill sets, the individual, the veteran, is not aware of what 
they are.
    Because of our education and history and knowledge of the 
military, we are able to get those skill sets out and come up 
with resumes that are working resumes, not just a show resume, 
but something that actually has substance to make that veteran 
competitive for employment and to also help with any other type 
of application process, even for education.
    Our veterans today are facing a lot of mental problems: 
PTSD, TBI, or the combination of both. It makes the veterans 
upset. They get angry. They have a very low temper tolerance, 
and because of our services, because of our personalized 
services, we are able to assist the veteran with what needs to 
get accomplished.
    Mr. Daniel. I concur with----
    Chairman Akaka. Mr. Daniel?
    Mr. Daniel [continuing]. Ms. Helen.
    Thank you very much, Mr. Chairman.
    What I personally experienced was that I was so ashamed 
when I came home, I just could not really face the reality of 
wanting to talk to people about my problems. I just did not 
reach out. And the shame that I felt caused me to react in a 
lot of ways that I did.
    Again, I always thank God for MCVETs because they reached 
out in a way that no one else ever had. I was literally in 
prison, and they had a representative come around. I was in the 
cell and at that time I knew was facing a whole lot. And that 
individual came around, and I found out first and foremost, he 
was a veteran. Number 2, it was long-term--2-year availability 
to be able to do it. That, to me, is personalized. And once I 
got there, the counselors welcomed me with open arms.
    I still had a lot on my plate at that time. I still had 
obligations and commitments to the Division of Parole and 
Probation who allowed me to come out. They went the extra mile 
to even talk my probation agent and the judge to solidify this 
one final--and that was how I felt--one final opportunity that 
I would have in this life to do good. And they gave me my shot. 
We just have had a wonderful partnership ever since then. That 
is the effect that it has had on me.
    Chairman Akaka. Mr. Lawton-Belous?
    Mr. Lawton-Belous. Mr. Chairman, as a representative of 
Oracle Corporation, we have found that there are many reasons 
why we actually do not need to ask for money from the Federal 
Government to run our Wounded Warrior program--mainly because 
each wounded warrior we take in is a value-added proposition 
for Oracle Corporation. They add something to it.
    It is a dual mentorship. It is a two-way street on the 
mentorship role. One is that those who are in the industry need 
to mentor wounded warriors, soldiers, Marines, veterans coming 
out of the military to explain to them the career paths. It is 
a completely different world when you get into the civilian 
side and understanding it will take some time. There is always 
that uptick no matter what job you go to where there is a 
learning curve.
    But second, it behooves veterans to mentor those who are 
mentoring them to show them that this is actually what I 
learned in the military. This is what I am capable of doing. 
What we find now is only one-half of 1 percent of the 
population is actually serving in the wars that we are fighting 
today, which means that over time--it has already occurred 
where those who are hiring do not necessarily understand the 
value-added proposition that servicemembers can bring to an 
organization.
    That, I believe is the greatest effect of a mentorship 
program. That way, programs that we have today to help veterans 
transition out of the military will be more successful when the 
vast majority of senior to executive level managers are no 
longer military veterans.
    Chairman Akaka. Captain?
    Captain Wikul. Chairman Akaka, when America Works is racked 
and stacked against other companies that do similar-type work 
in the New York area, we consistently rank number 1 in getting 
people jobs. People come in the door. We give them mentoring. 
We give them mentoring. We give them interview skills so that 
we get them an interview, they give the right answers to the 
right questions so they can get the jobs.
    We do not get them the jobs. We get them the interview. 
They have to get the job, and we coach them in that process. If 
you are a veteran and you need a suit, we get you a suit. There 
is a program to get him in a suit.
    I have to tell you, just recently within the last 2 weeks, 
I went to two homeless veteran shelters in New York City to 
give a motivational speech. Some of these guys are really 
whipped down and they are broken. And I start talking to them 
and I try to motivate them. I tell them, ``Look, when we are 
able to help you get a job, you will get back your self respect 
and dignity. And it will put you on the road to getting an even 
better job.''
    So, we go right into the shelters. We talk to them. We give 
them a speech. And around town, we have a card that says, ``Do 
you need a job? America Works, if you are a New York City 
resident having difficulty finding employment, call this number 
and go here. No fee.''
    We are right in the trenches. We get these people. We bring 
them in the door. When I first hooked up with this company, 
what I really found amazing is, you walk in the door at the 
beginning of the day and it is loaded with people. You have to 
fight your way in to get to the offices. We went on some sales 
calls, and I came back about 5 hours later and I said, ``Where 
are all the people?'' And they said out on interviews getting 
jobs.
    So, this is what this company does. Against similar 
companies, we are ranked number 1. We get people jobs. We are 
right on the streets. We are in the trenches. We go to the 
homeless veterans shelters. We talk to the people. We mentor 
them. We bring them out of their shell. We give them the 
interview skills and a suit necessary to interview, and we push 
them out there and we help them restore their dignity and self 
respect so they can become whole people and good American 
citizens.
    Chairman Akaka. Mr. Ziob?
    Mr. Ziob. In respect to your question, Chairman Akaka, I 
believe mentorship and internships are very important. 
Occupational success is typically the combination of your 
subject matter expertise. You have to be a good nurse, system 
administrator, electrician, but also know how to navigate the 
world of work, the changing world of work. It is your aptitude. 
It is what you know about your job.
    The mentorship and the people that are in the trenches can 
provide that guidance. The difficulty there is they have a day 
job as well. So we need to free up their time and find the 
opportunity to connect them, mentor and mentee, in an effective 
way.
    Chairman Akaka. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Thank you to all of our witnesses for your excellent 
testimony and all the work you are doing out in the real world 
to help put our veterans to work and bring back the respect and 
dignity as you have all described.
    Mr. Ziob, I am interested in getting your thoughts on a new 
program that I am working on that would address some of the 
challenges that you mentioned in your written testimony about 
veterans as they face transition into civilian employment. I am 
working on a proposal for a demonstration project between the 
Departments of Labor, Defense and Veterans Affairs called the 
Military Pathways Demonstration Program that will really test 
projects that look at the feasibility of methods to assist 
veterans with military IT skills while they are entering the 
civilian IT workforce, because what we have found is our 
military are highly IT oriented. There are a lot of technical 
that they do in the field, but coming home, transitioning that 
into skills that they can use in the civilian workforce is 
extremely challenging.
    I wanted to ask you, in your experience as an IT employment 
specialist, can you expand on some of the challenges that you 
see servicemembers facing as they transition with these IT 
skills?
    Mr. Ziob. I think the opportunities are indeed plentiful. I 
mentioned briefly, but I would like to amplify it again. When 
you think about the role of IT in today's employment, many of 
us jump immediately to the typical IT job, a database 
administrator, system administrator, or other typical IT jobs. 
And I will come back to them in a second.
    It is equally important to understand, and, Senator Murray, 
you alluded to this, literally all jobs as we know them today 
and definitely tomorrow will have some element of IT technology 
and skills as well. So, we are talking about two opportunities: 
one to bring people into quickly growing IT jobs; but also to 
make sure that the jobs that they are getting are matching the 
skill set which today will embrace IT technology as well.
    Further to your question is the opportunity that arises if 
they already come with an aptitude or first iteration of 
understanding of what technology does to make their military 
job successful, we already made a big step forward. We do not 
have to teach them that anymore.
    Senator Murray. Right.
    Mr. Ziob. We typically have to bring them up to speed on 
how technology moved forward or they might have a more narrow 
usage of what they do. And that is today relatively easy to be 
done. We have a vast opportunity of online and instructor 
training. We typically have the curricula. We have plentiful 
credentials out there that can be industry-specific like Oracle 
or Microsoft. They can be vendor independent like from an 
association like Com Tier. So, the tools that we want and need 
are probably already at our disposal.
    Coming then, all the way back, to what is the last step 
that is needed? We actually come back again to understand what 
success, even in an IT-rich job, means, and that has to do with 
aptitudes and the way you approach your job. If we can combine 
those two things, I believe we can indeed build very, very 
effective pathways.
    Senator Murray. Well, thank you very much.
    Mr. Chairman, I do have several other questions. I have to 
get to another meeting. I will submit them for the record. And, 
again, I want to thank everybody and, Mr. Chairman, especially 
you for doing this hearing on a very, very important topic. 
Thank you.
    Chairman Akaka. Thank you.
    Senator Begich?
    Senator Begich. Thank you very much, Mr. Chairman.
    Again, I want to echo the comments from the other Members, 
that we appreciate you all being here and thank you for your 
testimony; and thank you for showing or describing some of the 
projects that are working out there and some of the work you 
all are doing. So, thank you for that.
    I want to, if I can, just ask some specific questions to a 
couple of individuals. One, I want to follow up on America 
Works just so I understand it.
    Is it only in New York at this point?
    Captain Wikul. Oh, no, sir. As I mentioned, it is in other 
States. We are in North Carolina. We are in New Jersey. We have 
got offices throughout New York, and they are going to grow to 
some other areas.
    Senator Begich. And America Works, on the veterans side of 
it, where do you see--and you made a great argument, put a 
million on the table and I can put 200 to work, which I think 
is great.
    Can you tell me what are the biggest challenges you have in 
expanding the program?
    Captain Wikul. Well, the biggest challenge is actually 
funding because you need funding to go to a State or a city to 
actually build a program there to open up an office. So, it is 
resources.
    Senator Begich. OK. And when you say that you are 
performance-based, which I think is very intriguing, when you 
place them into a position in a job, what is your follow-up, or 
what do you do after the fact? What is the next stage after 
they are placed?
    Captain Wikul. What happens is we do not get paid until 
they are in their job for 3 months, at least 3 months. So, the 
counselor or the salesperson has to constantly interact with 
that person in that 3-month period. Then there is some follow-
on programs, too. They can come back in. What is really 
gratifying is to see people--when I was there last week, people 
coming back in that maybe we have gotten them a job and then 
they have moved on to another job by themselves. And they come 
back in after a year and say thank you for getting me back to 
work.
    What happens is--let me give you a quick case in point. I 
was at one homeless veterans shelter where there was a young 
man. He served 5 or 6 years in the military, and he was an 
enlisted man. He became an officer. He got wounded in Iraq, and 
he had gotten out of the military. He had a high clearance. He 
was working in the State Department on a contract. He lost his 
contract, so he thought he would go to New York and check out 
the opportunities up there.
    Well, he could not find a job, and he had IT skills. He had 
combat skills. He was articulate. He could write well. I mean, 
he is anybody's dream for employment, and he just could not 
find a job. He was kind of immobilized and ground down, and 
here he was in a homeless shelter.
    So, after I gave my motivational speech, this guy stuck out 
like a sore thumb. I said, ``Tell me your story.'' And he told 
me, ``I got an SCI clearance'' and all this stuff. So I say, 
``We are going to get you a job. Here is our card. You come on 
in the office. We will get you an interview on a job, and once 
you are working again, you will see other opportunities.'' And 
so there is follow-on in the company.
    Senator Begich. And in that 3-month period, so if they have 
difficulty on the job, you have some opportunity to keep them 
kind of focused, and if there are situations that occur in that 
first 3 months, especially, to ensure that they are 
reintegrating back into the workforce?
    Captain Wikul. Absolutely. And that is all part of it 
because the beauty of that performance-based system, if they do 
not stay for 3 months, nobody gets paid.
    Senator Begich. Right.
    Captain Wikul.So there is an incentive to make sure that 
our people stay employed. But beyond that, when you walk into 
the place, what really amazed me--and the reason--I could have 
done any job that I wanted to do with my skill set, and I chose 
them not only because they were performance-based--and they 
have the metrics because 175,000, for the size of their staff, 
175,000 jobs in 25 years is a lot.
    But they are a loving company. You walk in the place, and 
they really exude love. They exude caring. People come in, and 
the beauty of it is, we assess your potential. We assess all 
the skills you have, and then the salesperson knows where all 
the jobs are. So what they do is they take the skills you 
already possess, match them with an employer who needs those 
skills, and gets them to work. And that is why we say it is 
work first. And you can do training and everything later on. 
Get them into work so they can start getting their dignity and 
their self-respect back. And when they get that, they are on 
the road to being whole again.
    Senator Begich. Very good.
    Captain Wikul. And I think that model works very well, sir.
    Senator Begich. Very good.
    One quick question. Ms. Tymes, if I could ask you, you had 
mentioned you have about a 90 percent--I do not know if you 
used the word ``satisfaction rate'' or ``effective rate'' I 
think was the----
    Ms. Tymes. That is correct.
    Senator Begich. How do you measure that effective rate? Is 
that customer repeat or what is the----
    Ms. Tymes. We actually have a research team that evaluates 
our cases. We have a database which is called Client Track, and 
all of the information that we get during an intake, during 
complete follow-up, and during reassessment, we enter in there. 
Our research team actually keeps that data, and we do a data 
dump monthly, which goes to all of our funders and to everyone 
in the AW2 headquarters so that they can see that we are making 
progress.
    Senator Begich. Thank you. Thank you very much.
    Mr. Chairman, just a quick comment.
    Dexter, thank you for your story. You were very good in 
listing out all the components that made a difference in the 
sense of your success. So, I just want to thank you personally 
and also thank you for those very specific points that you 
made. I appreciate that.
    Mr. Daniel. Thank you.
    Senator Begich. Mr. Chairman, thank you very much. I have 
no other questions, but I think this is a very timely hearing 
as we are moving forward in regards to dealing with the 
employment, the increasing unemployment of veterans. It is a 
higher percentage than the national average. So, I want to 
thank you for holding this hearing and bringing attention to 
the need of veterans. Thank you.
    Chairman Akaka. Thank you, Senator Begich.
    Mr. Daniel, I want to thank you very much for sharing your 
story with us.
    Can you recall what type of employment assistance you 
received, if any, when you were separating from the service?
    Mr. Daniel. Mr. Chairman, when I did separate immediately, 
the only avenue that really was open to me at that time that I 
knew of was to go to the unemployment building. I connected 
with them right away. I did not connect with a VA counselor at 
that time. And based on the skill set that I had, that 
particular counselor thought that I would be best suited 
perhaps in the financial field since that is what I was trained 
for. And so I did. I applied, and the assistance that they gave 
me landed me the first job that I got when I came out of the 
military.
    But, again, my problem, primarily, I could get a job, but I 
had some underlying issues that I just did not address. 
Eventually, the focus of being able, as we call it in recovery, 
to be a functional addict was not good enough. And I was not 
able to give a hundred percent.
    Chairman Akaka. Yes. I am looking at a point of time just 
prior to discharge as to how you prepared to move into civilian 
life and what happens after that discharge. It was mentioned 
also that there is a compensation that veterans receive, and 
many of them take it up and as a result, they delay looking for 
a job. So, these need to be considered as we try to devise 
methods of getting veterans to work as soon as they are out of 
service.
    Mr. Daniel. Yes, sir.
    Chairman Akaka. And there is a period in there that we need 
to look at as to what happens to veterans.
    Mr. Daniel. Exactly.
    Chairman Akaka. And there is a period when they are 
roaming, let's say, trying to find something, whatever it is 
they are looking for. This is a focus that we need to look at.
    I want to thank all of you for your responses and, of 
course, your testimony, which will be helpful to u. We need to 
work together in continuing to find the best ways and methods 
of trying to help our veterans as soon as they are discharged.
    We are certainly grateful to the Secretary for his efforts 
and for his team as well and for many of the organizations that 
some of you belong to now, who are on our second panel, who are 
working successfully in this area. We would like to see what we 
can do to even expand that to help the veterans.
    So, today's hearing excites me as to what we can begin to 
look at and do to help our veterans. And, of course, on our 
side, we are looking at this legislatively as to what we can do 
legislatively to help you with whatever your programs are and 
also the Department of Labor and their programs.
    So, in closing, I, again, thank all of our witnesses for 
appearing today. We know that there is much to be done in this 
area. And all of our Nation's veterans who have served 
honorably deserve to have adequate and accessible resources 
available to assist them. I am pleased to hear that the 
President as well as a number of important executive branch 
agencies and their leadership, some of which Secretary 
Jefferson mentioned in his testimony, are as committed as I am 
to ensuring that this is the standard from here on. I 
appreciate hearing the personal stories of our veterans, and I 
thank you all for your suggestions on improvements for the 
future.
    As Chairman, I will also continue to hold the Department of 
Labor and VA, as well as other agencies, accountable for 
achieving the results and goals they have set forth.
    Again, thank you very much for being here today and for 
helping us in this respect. This hearing is now adjourned.
    [Whereupon, at 11:41 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


Prepared Statement of Hon. Roland W. Burris, U.S. Senator from Illinois

    Thank you Mr. Chairman, I would like to begin by extending a ``Warm 
Welcome'' to our distinguished guests, as well as fellow colleagues 
from the Committee. Moreover, I would like to say that it is especially 
nice too see Secretary Jefferson again.
    Mr. Chairman, not withstanding Veterans medical care, one of my 
most important priorities is Veterans employment as well as the 
subsequent transitional programs which help to mitigate their burdens 
and reduce homelessness within this community of our Nation's hero's.
    With this in mind, I would like to share a few appalling facts with 
the Committee. Currently in Chicago, approximately 1000 Veterans are 
homeless on any given night. Moreover, it is estimated that more than 
131,000 Veterans are homeless on every night in the U.S. and nearly 
twice as many experience homelessness at some point during the year. 
This is of course directly linked to the employment challenges that 
many Veterans' face and I find this Simply Unacceptable!
    A 2005 VA report found about 20,000 permanent housing beds and 
10,000 transitional beds are needed to help homeless veterans. 
Recommendations endorsed by the Chicago and national homeless 
coalitions include funding 20,000 Section 8 vouchers for the HUD-
Veterans Affairs Supported Housing Program.
    Among programs that work to serve an estimated 18,000 Chicago-land 
veterans is St. Leo's Residence for Veterans. It opened its doors in 
2007, and is now home to 141 residents who have access to the adjacent 
health and employment center.
    St. Leo Transitional program is a proven concept model that helps 
reestablish Veterans back into society by providing them the tools they 
need to become an active and productive member of the work force and 
local community.
    This past November 3rd, Secretary Shinseki unveiled a plan to end 
veterans' homelessness in five years, saying that ``the VA will spend 
$3.2 billion next year to reduce homelessness among veterans''.
    I agree with Secretary Shinseki's initiative and applaud his 
efforts to focus the VA's efforts on getting homeless veterans off the 
streets; however I want to prevent them from ever becoming homeless in 
the first place through employment initiative programs as well as 
transitional assistance programs, such as the example shown at St. 
Leo's.
      

                                  <all>

</pre></body></html>
